<html>
<title> - REAUTHORIZATION OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     REAUTHORIZATION OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 1997
                               __________

                           Serial No. 105-47
                               __________

Printed for the use of the Committee on Government Reform and Oversight






                       U. S. GOVERNMENT PRINTING OFFICE
44-274                          WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
                  Chris Marston, Legislative Assistant
                          Ianthe Saylor, Clerk
                    Michael Yeager, Minority Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 1997......................................     1
Statement of:
    McCaffrey, Gen. Barry, Director, Office of National Drug 
      Control Policy.............................................    10
    Rabkin, Norman, Director, Administration of Justice Issues, 
      General Accounting Office, accompanied by Jess Ford, 
      General Accounting Office, and Marsha Lillie-Blanton, 
      General Accounting Office..................................    73
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     6
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............     3
    McCaffrey, Gen. Barry, Director, Office of National Drug 
      Control Policy, prepared statement of......................    14
    Rabkin, Norman, Director, Administration of Justice Issues, 
      General Accounting Office, prepared statement of...........    75
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, December 31, 1996, Boston Herald article.    49









     REAUTHORIZATION OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY

                              ----------                              


                         THURSDAY, MAY 1, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, Mica, Barr, 
Barrett, Blagojevich, and Cummings.
    Staff present: Robert Charles, staff director and chief 
counsel; Chris Marston, legislative assistant; Ianthe Saylor, 
clerk; Michael Yeager, minority counsel; and Ellen Rayner, 
minority chief clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order. 
I want to say good morning and welcome to everybody. We have an 
excellent opportunity today and in the upcoming months. The 
authorization of the Office of National Drug Control Policy 
expires at the end of this fiscal year, which is September 
30th. Considering legislation to reauthorize this office gives 
us a chance to evaluate the way our Government responds to the 
threat posed by illegal drugs.
    Since the office was established in 1988, it has been 
reauthorized once in 1994. Several changes were made at that 
time. We now need to consider the effect of those changes and 
what new improvements we can make to enhance coordination of 
our Nation's efforts to fight drug abuse. As the subcommittee 
begins to develop its own ideas about changes in ONDCP, I look 
forward to hearing from Gen. McCaffrey, as we always do, about 
his proposals, and also Norm Rabkin of the General Accounting 
Office about the considerable work that office has done in 
evaluating coordination of the Federal drug control efforts.
    Before we hear testimony from our witness, I'd like to take 
a moment to remind everyone that the issue we confront today is 
not just about technical changes in legislation; it's about the 
threat posed to our Nation by illegal drugs. And not just the 
people who you think sit or stand on the street corners. It's 
in our schools. It's in our communities. It's all over. And it 
really affects the No. 1 victim of this, our children.
    As we consider proposals for changing ONDCP, we need to 
remember that we are working to protect our children and our 
society from the effects of drug abuse and the dangers 
connected with drug trafficking. As recently as Tuesday, I was 
reminded of the dangers presented by drugs. A man in one of our 
adjoining districts in Illinois, just north of my own, was 
arrested for giving a so-called date rape drug to a woman. Had 
she not received prompt care, her reaction to the drug could 
have killed her.
    While we have no measures to indicate that the prevalence 
of the particularly insidious use of date rape drugs, recent 
studies tell us that other types of drug use among our youth 
continues to rise. Illicit drug use among 8th and 10th graders 
has doubled in the last 5 to 6 years. Our children are using 
LSD and other hallucinogens, cocaine, heroin, and 
methamphetamine, at increasing levels. MDMA, commonly referred 
to as ecstacy, has been used by nearly 5 percent of 10th and 
12th graders, as well as 2 percent of 8th graders.
    MDMA is just one example of a new and emerging drug that 
threatens our youth. Parents have stopped talking to their 
children about the dangers of drug use. And only 3 of 10 
children say their parents have talked to them about drugs. And 
faced with a problem of this magnitude, we must take very 
seriously the task before us today. Before asking Gen. 
McCaffrey to testify, I yield to my friend, the subcommittee's 
ranking member, Tom Barrett, for any opening comments that he 
may have. Mr. Barrett.
    [The prepared statement of Hon. J. Dennis Hastert follows:]
    [GRAPHIC] [TIFF OMITTED] T4274.001
    
    Mr. Barrett. Thank you, Mr. Chairman. I, too, would like to 
welcome Gen. McCaffrey and Mr. Rabkin today. The consequences 
of illegal drug use are more serious than ever for the health 
of our Nation, for our productivity, and for the safety of our 
communities. As you pointed out in the 1997 drug strategy, 
every man, woman and child in America pays about $1,000 per 
year to cover the ex- pense of crime in our neighborhoods, 
extra law enforcement, unnec- essary health care, auto 
accidents and loss productivity all result- ing from substance 
abuse. And that's not to mention the incalcula- ble harm done 
to families and communities by the effects of drugs.
    Gen. McCaffrey, you have a difficult job. Not only are you 
respon- sible for developing our national drug control 
strategy, your office is also responsible for coordinating the 
drug control efforts over 50 Federal agencies, each with its 
own priorities, and each with its own bureaucracy. An important 
place to start in our effort to com- bat illegal drugs--and I 
see this reflected in the drug strategy and in the proposed 
reauthorization bill--is with our country's young people.
    In recent years we've seen a very troubling increase in the 
num- ber of teenagers and young adults using drugs. The 
percentage of youngsters between 12 and 17 using illegal drugs 
has steadily gone up, from 5.3 percent in 1992 to 10.9 percent 
in 1995. That's more than 1 out of every 10 young people in 
America. Among eighth graders, drug use has gone up 150 percent 
over the past 5 years. This year's drug strategy reflects the 
fact that underage alcohol and tobacco use leads to more 
serious drug use down the road. They are gateway drugs.
    And research on the subject shows a strong statistical 
association between adolescent tobacco and alcohol use and the 
use of other drugs. Children 12 to 17 years old who smoke are 
19 times more likely to use cocaine than children who have 
never smoked. Chil- dren 12 to 17 who drink alcohol are 50 
times more likely to use cocaine than children who never drank; 
12- to 17-year-olds who smoke cigarettes, drink alcohol, and 
use marijuana are 266 times more likely to use cocaine than 
children who never used these sub- stances.
    These are difficult problems, Gen. McCaffrey. And I stand 
ready, as I'm sure all of my colleagues do, to do everything in 
our power to help you succeed. I look forward to hearing your 
testimony today. Thank you.
    Mr. Hastert. The gentleman from Baltimore, MD.
    Mr. Cummings. Thank you very much, Mr. Chairman. General, 
I've had the honor to hear your testimony before this committee 
on different occasions. And let me say how impressed I am with 
your continuing commitment and integrity in fighting this drug 
war. I want to applaud you and encourage you to continue your 
mission. It is not enough to have a vision, it is important to 
be on a mission. And that is what I think you are trying to do. 
And I support you.
    General, we don't have time to point fingers. Life is too 
short. And too many people are dying and suffering. You have 
travelled to my district of Baltimore and walked the streets 
with me where drug trafficking flourishes, and you have visited 
treatment centers where patients strive simply to get well. You 
have seen people who are in so much pain that they don't even 
know that they are in pain. I fully support the HIDTA programs. 
In fact, I'm scheduled to visit the Washington-Baltimore HIDTA 
shortly.
    This particular HIDTA provided vital support to the 
investigation that culminated in the largest drug seizure in 
Maryland's history. As you know, in February U.S. Customs and 
U.S. Drug Enforcement Administration agents seized 2,400 pounds 
of cocaine, worth $25 million, concealed in steel drums 
transported to a Baltimore chemical company. General, I am also 
grateful to you for your attentions to the abuses of tobacco 
and alcohol. Last May, a stunning report issued by the Federal 
Centers for Disease Control and Prevention stated that 4.5 
million children and adolescents smoke in the United States.
    This is particularly troubling for me because the 
proportion of African-American boys in grades 9 through 12 who 
reported they smoked was almost double. The report concluded 
that nearly one out of every three young people who smoke will 
have their lives shortened from terrible diseases caused by 
smoking. I am committed to doing everything possible to help 
enact President Clinton's new tobacco regulations. These 
policies are only the first steps in saving generations of 
young people from becoming addicted to tobacco, which science 
has proven causes serious health problems including early 
death.
    I would also like to take this opportunity to comment on 
the Sentencing Commission's recent proposal to adjust the great 
disparity in sentencing for powdered cocaine versus crack 
cocaine. This development is long overdue. The current 
guidelines are not only racist, but they do nothing to assist 
in the development of a results-oriented national drug policy. 
And finally, I urge your office to do more to address the 
allegations made against the Central Intelligence Agency and 
their relationship with regard to the introduction of crack 
cocaine into American urban centers. Although you were one of 
the first Government officials to call for full disclosure by 
the CIA, very little or no interest in getting to the bottom of 
these disturbing charges is evident.
    As the use of crack cocaine continues to skyrocket in urban 
areas, there is a growing outcry in American cities to know the 
truth about how this plague began. Until we can get an honest 
answer to the origins of this crisis, the talk of winning this 
war is useless. The House of Representatives must follow the 
example of the Senate, and hold open and thorough hearings on 
the trail of drugs from Nicaragua to Washington to the 
distribution networks of violent street gangs.
    Finally, General, once again, let me say how pleased I am 
for you to be here today. I also want to compliment you on your 
hard-working and dedicated staff. They have been extremely 
helpful to me and my personal staff. I am fully supportive of 
your mission. And I stand ready to assist you in any way that I 
can.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:] 
[GRAPHIC] [TIFF OMITTED] T4274.002

 [GRAPHIC] [TIFF OMITTED] T4274.003

 [GRAPHIC] [TIFF OMITTED] T4274.004

 [GRAPHIC] [TIFF OMITTED] T4274.005

    Mr. Hastert. Without objection, we'll move now to 
questioning. Anybody that has an opening statement will submit 
it for the record.
    Mr. Blagojevich. Can I say something?
    Mr. Hastert. Go ahead.
    Mr. Blagojevich. Thank you, Mr. Chairman. I would only say 
that--excuse me for being late, by the way. I would only say 
that in my judgment the war on drugs is our new cold war in 
America. We were successful in facing an external threat to our 
national security during the cold war because we had the will 
and the wherewithal, and we put forth the effort to meet that 
challenge. And I just hope that our country can put that same 
kind of focus in not only fighting but ultimately winning this 
war on drugs.
    And I would simply say again that it's a real privilege to 
serve on this subcommittee. And, General, I look forward to 
hearing your testimony because I can't think of anything more 
important than this particular issue facing America. So, thank 
you for coming, and I'm eager to hear your testimony.
    Mr. Hastert. I thank the gentleman from Illinois. Now I 
would like to formally welcome Gen. Barry McCaffrey, Director 
of the Office of National Drug Control Policy. General, 
welcome. As usual, we look forward to hearing your testimony. 
General, as you know, the rules of the committee require that I 
swear you in. Will you please stand and raise your right hand?
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witness responded 
in the affirmative. General, please proceed with your 
testimony.

STATEMENT OF GEN. BARRY McCAFFREY, DIRECTOR, OFFICE OF NATIONAL 
                      DRUG CONTROL POLICY

    Gen. McCaffrey. Mr. Chairman, thank you very much for the 
opportunity to come down here and to lay out some initial 
thoughts, and, more importantly, respond to your own questions 
and listen to your own comments. Let me underscore that your 
leadership and also Mr. Barrett's and Elijah Cummings' and Rob 
Portman's and Steny Hoyer's and Jim Kolbe's and others has been 
a source of not only enormous confidence in dealing with 
Congress, but more importantly, we've learned a lot from 
listening to those of you who have worked this problem over the 
years.
    With your permission, I would like to point out that we 
have with us in the hearing room some very important people to 
the drug issue. Dick Bonnette, Partnership for a Drug Free 
America, which has done such absolutely splendid work over the 
last many years trying to organize public service 
announcements, pro bono announcements. Jim Burke, as you know, 
has been the guiding light of that effort. We have with us the 
Community Anti-Drug Coalition of America, Jim Copple, 
representing more than 4,000 community coalitions across this 
country. Jim has been absolutely pivotal in our success in 
communicating the National Drug Strategy.
    Bill Alden, from D.A.R.E. America, is also here. As you 
know, the D.A.R.E. program, with some 25 million children 
involved, has been what many of us believe the single most 
effective drug prevention program in the school system we've 
had to date. We also have Judge Jeff Tauber, from the National 
Association of Drug Court Professionals. There are some 200 
drug courts now, 89 of them funded by the United States, 
supported by Federal funds. And they have, while not being a 
magical bullet--are probably the single most effective new 
initiative, I argue, we've seen in the criminal justice system 
relating to the drug issue.
    Mike Kirshenbaum, from the National Center for Drug Free 
Kids, is also with us--a very key organization in our 
continuing concern about gateway behavior with adolescents. And 
we have Chris Rugaber, from the National Association of State 
Alcohol and Drug Abuse Directors. And, as you know, they 
represent our State Governors as sort of the primary point of 
contact on prevention and treatment programs. And they've been 
essential to my own education in the last year. Finally, and 
very importantly, Laura Waxman, from the U.S. Conference of 
Mayors, is here, representing some 1,500 mayors of cities with 
populations over 30,000.
    I've been involved very heavily in the last 6 months with 
not only Mayor Rich Daley but also his mayors' coalition on 
drugs, which, as you know, will come to Washington here, toward 
the end of May--probably over 100 mayors--to have a national 
conference and to present us with their own ideas. So I'm very 
grateful for these representatives to be present and to provide 
continuing guidance and support to me. Mr. Chairman, with your 
permission, I might offer for the record our statement, which 
we have provided to your committee members, and also the 
associated graphs. And it's our attempt to bring together in a 
coherent manner our own ideas on reauthorization.
    Mr. Hastert. Without objection.
    Gen. McCaffrey. I've also provided, obviously, not only, 
Mr. Chairman, to your committee, but also to the Senate and the 
House Republican and Democratic leadership, our rewritten 
authorization bill for the Office of National Drug Control 
Policy. And that packet has been made available to all of you. 
We've had a very hard working group throughout the executive 
branch struggling over this for the last 8 months. We think 
it's a solid piece of work, and one that will allow us to 
continue to support the American people and to carry out the 
mandate of confronting drug abuse and its consequences in 
America.
    And, finally, I will again remind myself, for starters, 
that the National Drug Control Strategy 1997 and the National 
Drug Control Strategy budget, which by law I must prepare and 
certify and submit to Congress each year, has been put on the 
table. We think they are solid pieces of work. The 1998 budget, 
itself, is some $16 billion that I have asked for the support 
of the two appropriations committees. Very briefly, with your 
permission, Mr. Chairman, I will run through some ideas that 
are on charts.
    And starting off with, again, a restatement that our entire 
effort is organized around five goals of the National Drug 
Strategy. We have now articulated, we think, in a pretty decent 
fashion, 32 supporting objectives for these five goals. That is 
the conceptual framework that we intend to hang the budget, 
policies and programs on. The next chart briefly outlines a 
quick overview of where we are in drugs in America.
    And, again, it's important to remind ourselves drug abuse 
is down by 50 percent, cocaine use has plummeted 75 percent. 
But that's not the nature of the problem we're working. That 
may be the good news. But the bad news is that the--next 
chart--the consequences of this drug abuse have gone up. We're 
seeing more sick, desperate people, more hospital room 
emergencies. In addition, we are clearly facing a tremendous 
increase in the consequences of drug-related crime--1.6 million 
Americans behind bars.
    And I've just tried to demonstrate Federal, local and State 
increases. We think it will go up 25 percent more by the turn 
of the century. And this is a system which we assert we have 7 
percent of the treatment capacity for those incarcerated that 
we need. A quick overview. And this chart is not meant to be 
discouraging, but it does cause some pause for thought. Since 
the 1990 through 1995, we're looking at a system in which the 
production of cocaine has essentially not gone markedly up or 
down. The seizure rates in the international community have not 
gone up or down. And the domestic seizure rates have not 
changed.
    I say this really to put explicitly on the table that what 
we actually are seeing now in cocaine is a heavy amount of 
drugs, the same amount of drugs, chasing less addicted people 
who are more sick than ever. That's the truth of the matter. 
And that's what we're facing on the interdiction fight. We can 
and should do better. But that's our track record. We've seen a 
change in youth attitudes. This, I would argue, as you have 
said in your opening statement, is the heart and soul of the 
problem.
    Youth attitudes started changing in 1990. The perception of 
risk went down. Drug use started up. It has gotten worse every 
year since then. The problem is it's going to get worse. It's 
half as bad now as it was 15 years ago. So, we've got to simply 
get organized and confront this problem. The stat that bothers 
me most out of all of these is a look at the eighth graders. 
Look at the front end of the bubble, as they enter the most 
vulnerable period of their adolescent development, whether it's 
central nervous system or social development or the requirement 
to learn and physically develop, drug use among eighth graders 
has nearly tripled--primarily marijuana--in the last several 
years. And I underscore this because this is much higher THC 
levels of pot that we're talking about. These are not college 
sophomores. These are eighth graders. Drug abuse in the United 
States really begins in the sixth grade.
    Finally, the purpose you've asked me to come over here and 
talk about is the reauthorization of the National Drug Control 
Policy Office. And these are two charts. If you'll put up the 
second one, also, Steve. The two charts outline the principal 
changes that we have tabled for your consideration and your 
colleagues. First, we are arguing that there should be a 10-
year perspective on the strategy. I would still argue we should 
come down each year and update and explain whether 
environmental conditions have changed. But a 10-year commitment 
to face this drug problem. We would argue for a 5-year drug 
control budget, so that the debate that we put in front of you, 
that I force the Federal bureaucracy to look at it in a longer 
term and allow your judgments to come into play on a 5-year 
budget.
    We think we're making some absolutely spectacular progress 
in developing measurable goals and objectives. And I can talk 
about this in greater detail in response to your own questions. 
But this may be one of the most exciting things going on in 
Government to try and define performance targets and 
performance measures, and to be able to come down here and 
relate the money you gave me not to process but to outcomes.
    Now, we're also going to argue to make more explicit what 
has been in the national drug strategy since 1992 under 
President Bush's guidance, that we are indeed concerned about 
gateway behavior. And I won't repeat the statistics so nicely 
laid out by your committee. But there is unarguable evidence 
that the correlation between some of these gateway behaviors 
and later addictive problems are so powerful that if we were 
talking about seat belts or lung cancer or dietary 
restrictions, there would simply be no discussion. On the other 
chart I've outlined four other considerations I'd ask you to 
consider.
    We want to talk about an office of inter-governmental 
relations instead of State and local affairs. This better 
captures what they're doing. We're going to have to apply more 
attention to this HIDTA program. Congress has now given me $140 
million, and has designated 15 HIDTAs. This is paying off. It's 
a good program. And so I recommended we put together an element 
inside ONDCP to follow it. CTAC--we want to broaden their 
viewpoint on bringing technology to bear on all five goals of 
the National Drug Strategy.
    And, finally, Mr. Chairman, I would ask your committee to 
consider extending ONDCP for 12 years, to say that this is not 
a 1-year campaign. This is a 10-year strategy, 5-year budget, a 
long-term commitment to a coherent policy. That really captures 
the broad scale of what I would ask you to consider. And, Mr. 
Chairman, I thank you again for the opportunity to lay these 
ideas out for you.
    [The prepared statement of Gen. McCaffrey follows:] 
    [GRAPHIC] [TIFF OMITTED] T4274.006
    
    [GRAPHIC] [TIFF OMITTED] T4274.007
    
    [GRAPHIC] [TIFF OMITTED] T4274.008
    
    [GRAPHIC] [TIFF OMITTED] T4274.009
    
    [GRAPHIC] [TIFF OMITTED] T4274.010
    
    [GRAPHIC] [TIFF OMITTED] T4274.011
    
    [GRAPHIC] [TIFF OMITTED] T4274.012
    
    [GRAPHIC] [TIFF OMITTED] T4274.013
    
    [GRAPHIC] [TIFF OMITTED] T4274.014
    
    [GRAPHIC] [TIFF OMITTED] T4274.015
    
    [GRAPHIC] [TIFF OMITTED] T4274.016
    
    [GRAPHIC] [TIFF OMITTED] T4274.017
    
    [GRAPHIC] [TIFF OMITTED] T4274.018
    
    [GRAPHIC] [TIFF OMITTED] T4274.019
    
    [GRAPHIC] [TIFF OMITTED] T4274.020
    
    [GRAPHIC] [TIFF OMITTED] T4274.021
    
    [GRAPHIC] [TIFF OMITTED] T4274.022
    
    [GRAPHIC] [TIFF OMITTED] T4274.023
    
    [GRAPHIC] [TIFF OMITTED] T4274.024
    
    [GRAPHIC] [TIFF OMITTED] T4274.025
    
    [GRAPHIC] [TIFF OMITTED] T4274.026
    
    [GRAPHIC] [TIFF OMITTED] T4274.027
    
    [GRAPHIC] [TIFF OMITTED] T4274.028
    
    [GRAPHIC] [TIFF OMITTED] T4274.029
    
    [GRAPHIC] [TIFF OMITTED] T4274.030
    
    [GRAPHIC] [TIFF OMITTED] T4274.031
    
    [GRAPHIC] [TIFF OMITTED] T4274.032
    
    [GRAPHIC] [TIFF OMITTED] T4274.033
    
    [GRAPHIC] [TIFF OMITTED] T4274.034
    
    [GRAPHIC] [TIFF OMITTED] T4274.035
    
    [GRAPHIC] [TIFF OMITTED] T4274.036
    
    [GRAPHIC] [TIFF OMITTED] T4274.037
    
    [GRAPHIC] [TIFF OMITTED] T4274.038
    
    [GRAPHIC] [TIFF OMITTED] T4274.039
    
    Mr. Hastert. I thank you, Gen. McCaffrey. And with us also 
now is our vice chairman, Mr. Souder, who didn't get a chance 
to give his opening statement. I think he's going to give a 
short opening statement. I'll let you open the questions, Mr. 
Souder.
    Mr. Souder. Thank you, Mr. Chairman. And I want to welcome 
Gen. McCaffrey. You were briefly over in the Republican 
Conference. I thought you were going to address us over there 
where I was. I apologize for missing the start of your 
statement. I appreciate your continued commitment to speaking 
out. I've read through your testimony and have some questions. 
But in my opening statement I wanted to express a deep personal 
concern, and make sure it's in the record. I would like to 
insert for the record this article, if I could have unanimous 
consent.
    Mr. Hastert. Without objection.
    Mr. Souder. It concerns William Weld and some of his 
positions on medicinal use of marijuana.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4274.040
    
    Mr. Souder. In your statement to us, you correctly point 
out, as you just did verbally, the danger of marijuana use as 
an entry-level drug. You point out that in even reducing drunk 
driving, that marijuana is now the second leading cause of 
drug-related accidents behind alcohol. We have another section 
countering attempts to legalize marijuana. You correctly point 
out that in preventing drug trafficking across the Southwest 
Border, that the United States-Mexican border is the microcosm 
of America's drug problem. You correctly point out the 
difficulties the we're facing with Mexico in the counter-drug 
cooperation, and talk about Mexico continuing to face an 
emergency situation in their country because their democratic 
institutions are under brutal internal attack by international 
drug criminals.
    There are laudable things--you have a statement about 
measuring and reducing illegal domestic marijuana cultivation. 
In the Boston Herald, December 31, 1996, it says: ``Gov Rips 
Drug Czar's Threat: Weld Backs Pot Use for the Ill. Says he: 
`Let docs prescribe pot.' Governor William Weld yesterday took 
a pot shot at President Clinton's bid to snuff out medicinal 
marijuana use, following a push to allow state-based doctors to 
prescribe the outlaw weed.''
    Now, I want to know, if Mexico is our No. 1 problem in this 
country, where the drugs are coming across. And this is 
obviously not partisan. William Weld is a Republican. He takes 
a cheap shot at you, headlined. And I want to commend you on 
your efforts to speak out in a very difficult political 
situation, when two major States pass referendums. And I 
commend you for your efforts. And I think this potential could 
undermine our biggest international crisis--the Mexican 
border--if we send an ambassador to Mexico who is undermining 
our domestic efforts, criticizing our drug czar, and every time 
we meet the Mexican Government, every time we meet with Mexican 
legislators, every time we meet with them, they're going to 
throw our own Ambassador's statements back at us.
    And I hope you will--if you can't publicly, at least 
privately, ask the President to reconsider this. And this is 
certainly going to be an issue. And many of us are going to 
make it an issue. Because I did not spend these multiple years 
and have my kid--working on the drug issue first as a staffer, 
and since as a Member--and watch my kids in my home town and 
people under attack by drugs, so that we appoint an ambassador 
to a country that is pooh-poohing a threat of this gradual 
legalization trend. And I can't imagine anything more 
devastating. And I hope that understanding that he has made you 
an issue, which puts you in an awkward position--that you'll be 
willing to speak out. And this is a devastating blow to what 
we've been trying to do to make America aware.
    I just can't conceive that we would put a man in this most 
high and conspicuous position with this background. Even if he 
will retract this. If he understands what the administration 
position is--we're still going to have this thrown back at us. 
I felt that's very important to get in the record. It's not 
something that's going to end. And it is directly related to 
the drug czar, because he took--it says, ``Gov Rips Drug Czar's 
Threat'' and the language goes through.
    So, I'm very disappointed. I wanted to put that into the 
record as an opening statement. And if I can now move to my 
questions, I will do so. One of the questions that we've been 
trying to sort out is some of where your drug research money 
has been going. And we understand that there was some question 
about what happened in 1996. 1997 is a bit unusual. And I just 
wondered for the record if you could provide us a comprehensive 
list of the individuals and organizations that ONDCP funded 
over the past 2 years, as well as through other agencies which 
you have budget review authority? Because there have been some 
concerns about where we're headed in the research regarding 
marijuana.
    It is very important that we don't have mixed messages 
going out. Many of us--I, particularly have been disturbed as 
I've gone through schools, and have been evolving my position. 
I always opposed tobacco use for minors. And I believe we've 
had to up and--been moving along with the rest of the 
Government. While I fear Government intervention in too many 
areas, believe that we're going to have to cross some lines 
because of the tobacco usage and its relationship to marijuana 
and alcohol. I think we need to speak out more. But it's 
important that we keep a united front on the marijuana 
question. And I'm very concerned that--what research is out 
there, how it's being used, and how it can be distorted, and 
would appreciate that record so we can look at it in more 
detail.
    I also wanted to commend you in your written statement. I 
missed the first part, so I'm not sure whether you verbally 
referred to that--and that was the importance of your work with 
the entertainment industry. It is clear from going to schools 
that the music and the movies and particularly the music, is 
one of the most sensitive areas with kids. And we really have 
to work with the administration and others to try to turn this. 
Could you elaborate on where you might be heading with this and 
just give me some comments on what you alluded to? I think you 
had, I think, just a few sentences that you were going to try 
to work with that.
    Gen. McCaffrey. The entertainment industry visit was, to be 
honest, quite encouraging and almost surprising. I prepared for 
that for 3 or 4 months. There was enormous suspicion on the 
part of the entertainment world when I went out there whether 
they would be treated to a lecture and a thumping and then I'd 
leave. What we essentially did was, we asked for their help, we 
asked for their support.
    I told them we had three principal concerns. First, that 
drug abuse be pictured realistically when it was shown, that we 
had no problems with a movie like ``Trainspotting,'' but 
enormous difficulty with a movie that romanticized or portrayed 
as glamorous the use of drugs. We said if you're going to put 
drugs into the entertainment world, make sure it looks like 
real life. The second thing we asked them to do is, don't 
portray drug use as the norm. It isn't. Most of us in America 
don't use drugs. Some of us do and have enormous problems. So 
make sure you tell our children that it's 1 out of 10, which is 
a terrible problem, but it's not the norm of behavior among 
adolescents.
    And the third thing we asked the entertainment world to 
consider is, don't portray drugs as funny. They're not funny. 
They kill 14,000 people a year and cause enormous anguish 
across this country. So we said, those are the three things 
we'd like you to consider. Finally, we asked for their thoughts 
and their involvement. I think we're getting some payoff 
already. I was astonished. I went to the Writers' Guild, the 
producers, the directors, the Entertainment Industry--EIC--
Council, the Actors' Guild, and I think there was a very 
positive response.
    The one clear problem I would suggest to you is, we're 
going to do a lot better with television than we are with the 
music industry. We're going to do better with the established 
movie industry than we are with the independents. There's 
tremendous sensitivity, which we support, to the rights of free 
expression in the entertainment world. But I think the larger 
firms were very positive. I was very impressed.
    Mr. Souder. One thing that turned up in some of our 
discussions around ``Trainspotting,'' which is very 
controversial, and also some of the music industry--and this 
may be something to look at in some of the research, is that 
there's clearly a difference of opinion of what is viewed as 
attractive by the majority of the people and what can be viewed 
as attractive by actually the high-risk groups who are more 
likely to be addicts.
    Gen. McCaffrey. I agree.
    Mr. Souder. And particularly when you go into the schools 
and see the type of clothing and almost a depressing view of 
life, that something to most of us that looks like portraying 
the actual and is a depressing thing that we wouldn't find 
attractive, is actually a reverse attraction.
    Gen. McCaffrey. Yes. I agree.
    Mr. Souder. And to some degree, educating, getting more 
research on that as it relates to the fashion industry and 
stuff, too, ups the awareness of parents as well.
    Gen. McCaffrey. Yes. I think you're entirely right. 
``Trainspotting'' is a good example in which perhaps to the 
adolescent world it's an inappropriate movie, but it's a great 
film for parents to see.
    Mr. Souder. If I can make one other--just a brief comment. 
While I understand--and I have taken to calling this both war 
and cancer, that it's both things, as we've discussed this--the 
likelihood of a 12-year reauthorization is pretty minimal 
because it's one thing, if you're there and we're working 
closely together--but just as far as how likely Congress is 
going to move, and the ability to manage and do this--a 12-year 
reauthorization is probably not realistic. It doesn't mean 
we're not committed to a 12-year battle.
    Viewing this as a cancer, any Congress that backs away is 
going to learn from--we're going to repeat history again if we 
don't keep the pressure on. I also wanted to express one other 
concern. And that is, I understand that there's some fencing 
going on between treatment interdiction. But I think that we 
need to make sure, just like your one chart that you had up 
there about interdiction, doesn't downplay that. Because there 
was some movement in less international interdiction in your 
chart, which actually opened up the amount of domestic.
    I'm not sure, simply because I don't know all the facts, 
how much domestic drop there's actually been. But that's 
something we all need to be very careful of, because we need to 
keep all fronts moving aggressively.
    Gen. McCaffrey. I absolutely agree, Mr. Chairman.
    Mr. Souder. I yield back.
    Gen. McCaffrey. That's why, when I show that chart, I'm a 
little nervous. It could be used for mischief on both sides of 
the question. I certainly don't mean to imply that that's 
futile. That was over 300 metric tons of cocaine taken out of 
the system each year, which potentially would have devastating 
impact on America. So law enforcement in our country last year 
took 107 metric tons of cocaine away from the criminals. Thank 
God. I agree with your point entirely.
    Mr. Hastert. Thank you. The gentleman yields back his time. 
We have a vote pending. So I'm going to recess for 20 minutes. 
And we'll be back here at five after.
    Gen. McCaffrey. Yes, sir.
    [Recess.]
    Mr. Hastert. The committee will reconvene. General, one of 
the things that we've had discussions about and the colleague 
from Indiana opened up the whole issue with Mexico. And we've 
had discussions on that. A couple things concern us. And let me 
just ask you, do you feel that since we've had the 
certification of Mexico and moved forward--and I know you've 
had considerable talks there and in the Caribbean area--what 
positive grounds are what measurable goals have we reached 
there?
    Gen. McCaffrey. Of course we have had a tremendous amount 
of energy into this process. And I think the congressional 
response and attention paid to it was in a large extent very 
helpful, because it underscored the vehemence and the 
insistence on the part of the United States Government as well 
as Mexican authorities that this level of corruption and 
violence that are threatening us out of international drug 
crime is unacceptable. So, I think some good came out of it.
    Now, we're watching Mexican partners with enormous 
sympathy. That's the bottom line. We think their senior 
leadership are committed to confronting the issue. We think 
they have an enormous internal threat to their democratic 
institutions. And to be balanced about it, much of it comes 
from $49 billion of United States drug money, and I might add, 
a considerable amount of United States arms being smuggled into 
Mexico. Now, they also, it seems to me, have understood quite 
clearly that if they don't confront effectively this issue with 
their own police, judicial system and armed forces, that they 
will lose their future.
    So, a lot of specific measures are ongoing, whether it's 
cooperation with training prosecutors, police agents. Mexico 
has announced today a very bold program to try and rebuild 
their drug police from the ground up. We have a considerable 
amount of support thanks to U.S. congressional action for 
providing their army with greater mobility to confront these 
massive drug gangs that are operating on both sides of the 
border.
    We have extradition in a very balanced manner ongoing on 
both countries. The Mexicans have made the tremendous effort to 
energize these three binational border task forces. And I would 
expect in the year to come we'll see more happen out of that. 
They have fired hundreds of corrupt police officers. This thing 
with Gen. Gutierrez Rebollo was a terrible blow, an incredible 
blow to Mexican leadership, to President Zedillo and Minister 
Cervantes, as you can imagine. They're attempting to roll up 
the gang of thugs that was part of his operation, which 
apparently was--essentially, he was a mole for Amato Carrillo 
Fuentes' drug gang. So, I think they're continuing to push the 
envelope. And we're going to work with them.
    Mr. Hastert. General, one of the things that you know that 
we've had discussions back and forth, there are about six or 
seven issues that we felt very strongly about. You've talked 
about one of them: extraditions, commitment to DEA agents, the 
use of side arm, which I know is a very touchy situation, 
permanent maritime agreements, the radar situation, and to 
endemic police corruption. And I would like for you, before the 
President goes to Mexico--I think it's May 6--that if you could 
write a letter of conveyance to me just in your assessment of 
where we're moving on that. I don't want you to do that 
publicly at this time. But I would like you to either us have a 
conversation or a letter outlining where we are at on those 
issues. I'd appreciate that very much.
    Gen. McCaffrey. Mr. Chairman, I might add, in front of each 
of you, you should have a copy of the letter that I sent to 
the--if I can find it--to Hon. Porter Goss and Hon. Norman 
Dicks. We had a closed, classified session, security 
implication of Gen. Gutierrez Rebollo's arrest. You have a copy 
of that. It has my letter to the congressional hearing and an 
earlier letter to Foreign Minister Gurria. And I would be glad 
to share with you, sir, the classified book that we put 
together, which includes, among other things, our own internal 
look at our intelligence system, and what we knew then and what 
we intend to do about it. So, I'd welcome a chance to share 
that with you.
    Mr. Hastert. As you well know, one of our other areas of 
concern in South America is Colombia and the situation we have 
there. And, of course, they had some type of an action by the 
State Department and the President. There's also a 614 Waiver 
that's sitting, that's been approved by State and, I 
understand, is sitting on the President's desk. I have a 
personal view on that, that it's very important that they have 
the ability, especially the national police force and the army, 
have the ability to have weapons to protect themselves and 
actually go out and do the job that they very, very gallantly 
have been doing. What's your view on that? Can we have that 614 
signed and sent to Colombia as soon as possible?
    Gen. McCaffrey. Mr. Chairman, I think there's commitment on 
the part of the Secretary of State and most of her senior 
people, and certainly on my part, and, I believe, on the 
President's--I've talked to him about it--to provide 614 Waiver 
authority for Colombia. We share your view. Gen. Serrano and 
the Colombian police authorities, who at great sacrifice, have 
continued to fight against this menace and also Gen. Bedoya and 
the Army. There is a very definite problem now, though, as a 
challenge on human rights concerns and the Senate amendment 
which requires a waiver and puts us under caution to not 
provide these weapons or, for that matter, FMS sales without an 
in-use monitoring agreement. And we are working pro-actively 
with the Colombians to get this signed to make sure both sides 
recognize the legitimate interest of the human rights community 
and the international press to watch this issue. If we can work 
through that I think we're going to move ahead. And I'm very 
confident we'll have a good outcome.
    Mr. Hastert. Well, we understand that, according to 
Ambassador Gelbard, at least, that is going to the police and 
not that Army, and there certainly is less movement----
    Gen. McCaffrey. But we're also going to support the Army. 
Both. There was a change recently now to provide the 
helicopters, I believe--one tranche of the helicopters will go 
to the police.
    Mr. Hastert. Well, we may want to have a separate 
conversation on this. But I think it's very, very important 
that we do get the aid down there. And, you know, I'm very 
sensitive to human rights and the issues of human rights. But 
the fact is that our children are being delivered cocaine, and 
in some cases, heroin, on our street corners, in our schools. 
And I don't think there are more heinous violations of human 
rights than that. And anything that we can do on the ground in 
Mexico, in the United States, in Colombia or Peru or any place 
else to stop that, we need to do it. I'll yield back my time. 
And Mr. Barrett is here for questioning.
    Mr. Barrett. Thank you, Mr. Chairman. Gen. McCaffrey, one 
of my reactions when I first came to Washington was it seemed 
as though we had an office for everything. And many of these 
offices conflicted in their goals or duplicated goals of other 
agencies, and it was this office or that office overseeing 
things. And one of the things that I'm happiest you're doing is 
taking the lead on recognizing that the drug use can begin many 
times with underage children, in particular the use of tobacco 
and alcohol.
    And I think it would be somewhat ludicrous if we had a drug 
czar and then a teenage tobacco czar and then a teenage alcohol 
consumption czar, when anybody who has been exposed to any of 
this recognizes that there is a correlation, as you have 
stated, as many others have stated. So I want to applaud your 
efforts in taking the lead on that. I think that's extremely 
important. And I think it helps dispel the notion that the 
Federal Government is tripping over itself by duplicating 
efforts. This is one of the times I have seen truly a person 
who brings issues that are somewhat related together because in 
the real world they are together. I just wanted to start off 
with that.
    You've heard some criticism already today about the notion 
of having a 12-year authorization. From your perspective, 
what's more important--getting the 5-year budget or the 1-year, 
12-year authorization?
    Gen. McCaffrey. Well, I think these things have symbolic 
importance beyond the practical. I think what I would like to 
see us all do is understand that 5 years from today, we're 
going to still confront addiction in America and its 
consequences. And we're still going to have the responsibility 
to actively promote drug prevention among American children, 
and indeed to continue to defend our air, land and 
seafrontiers.
    Given that, we need to understand that that strategy isn't 
a new idea every year, it's a concept that, if solid and 
coherent, ought to be used to build budgets year after year. 
And for that reason, I think the 10-year notion, if you didn't 
say it was a 10-year document, I think we're missing a bet in a 
very important philosophical way to make that commitment. But 
I'm not sure practically it's going to stop us from doing what 
we need to do. The second notion, though, is that the 5-year 
budget--we're still going to have to come down here and 
authorize a budget execution every year.
    I got that. But I would like to see that executive branch, 
the 50 agencies of Government, and the two Appropriations 
Committees force ourselves to see the tradeoffs in options. We 
simply can't have a debate over do we jail violent drug 
criminals or do drug prevention programs? Do we maintain the 
prison construction program or do after care? So if you don't 
get your time horizons out, as we do in the national security 
business or as IBM does and Sears & Roebuck does, I don't see 
how we're ever going to get a sensible solution to the problem. 
So, the strategy, the 5-year budgets, that's the heart and soul 
of it.
    For sure, what's going to be the case is, 12 years from 
today--some of us may not be present--someone here is going to 
continue to exercise this absolutely pivotal responsibility to 
protect America from drug abuse. I'd like to recognize that, 
embrace it, and say this isn't a trick, an election year issue, 
this is a commitment to America's future.
    Mr. Barrett. Thank you. One of the other issues that is 
under your jurisdiction is the HIDTAs. Can you give me a little 
better feel for how those work and why you think those are so 
effective?
    Gen. McCaffrey. Well, we do have a problem with HIDTAs. And 
the problem is having some concept that's defined having some 
objectives, having some performance measures of effectiveness. 
We've got to deliver that. The HIDTA concept has grown topsy-
turvy. We're now up to 15. We've got two more that I've 
provided funding--$1 million each--to Detroit and San Francisco 
for startup. I think we need clarity in what we're doing. And I 
think we're going to provide that in this strategy and in the 
subsequent performance measures.
    Now, having said all that, the 10 HIDTAs that have had a 
track record, some of them have been spectacular in using small 
amounts of money to support what smart cops and prosecutors are 
doing anyway: allowing task force operations so that local, 
State, and Federal law enforcement and prosecutors can go to 
the same place, share evidence, data and operations, deconflict 
operations, and bring together some coherence to counter-drug 
efforts. And the ones that are just spectacular are places like 
Miami, which in 7, 8 years of hard work has really made a 
tremendous change in the quality of the community life. And 
HIDTA has been a big part of it.
    We've got the one in Puerto Rico-Virgin Islands--is going 
to make, I would argue, an enormous difference organizing some 
600-some odd Federal law enforcement officers to act in sync 
with Puerto Rican police, attorney general, et cetera. New 
York--Howard Safers doing incredible work with--we've had--Mr. 
Chairman, your staffer was up there with us looking with 
tremendous admiration at what $9 million a year in Federal 
money has helped with in New York. So we're pretty upbeat about 
the potential of it.
    Mr. Hastert. Just in passing, they also have some National 
Guard assistance. Now, I want to talk about that in a few 
minutes. And just stop short of harping on my behalf, General, 
I just want to go back on the 614 for a second. You know, the 
505NUST agreement is in place with the police. And it's just 
very, very important that that's being expedited. I know that 
you have very close consultations with the President. And 
hopefully that thing could be signed before the President goes 
to Mexico, and moved. And that's our desire. So hopefully that 
can be passed on. I now recognize Mr. Mica.
    Mr. Mica. Thank you and welcome back, General. Yesterday, a 
district court in San Francisco barred the Federal Government 
from retaliation against physicians who endorsed therapeutic 
marijuana under California Proposition 214. The judge 
specifically cited the mixed signals being sent by the Clinton 
administration as one of the bases of the judge's ruling. This 
week a Federal judge barred our law enforcement agents from 
taking any action against doctors who recommend marijuana to 
patients under California's Proposition 215. She cited mixed 
signals from the administration as one of her reasons. General, 
I'm really wondering if we are serious, if we are in fact 
sending mixed signals about what we want to do in this war on 
drugs. What's the situation? What's the problem? What can we 
do?
    Gen. McCaffrey. Well, the judge issued a 42-page order, 
which--I have skim read parts of it. Obviously, Department of 
Justice has primary responsibility not only for representing us 
during those proceedings, but also interpreting what the 
results are. And I don't know. I don't know where this is going 
to come out. The only thing I can assure you of is that the 
administration position, we think, is prudent. It makes sense. 
It's in writing. It's a seven page document.
    It's endorsed by the President. It's in concert with U.S. 
Federal law. We are supported by the American Medical 
Association, the California Medical Association, the American 
Cancer Society, the American Opthamological Society. We have 
said we would be glad to aggressively examine the scientific 
claims of smoked marijuana to be a safe and effective medicine. 
And that's going on in the NIH, FDA community. We have funded 
American Academy of Science Institute of Medicine studies on 
what we know and don't know about smoked marijuana.
    We believe it is vitally important for the United States to 
maintain a system of national standards of medicine based on 
scientific inquiry and not ideology. We've got a problem and 
I----
    Mr. Mica. You just got back, didn't you, from Mexico?
    Gen. McCaffrey. I just got back from the Caribbean. I've 
also been to Mexico, yes.
    Mr. Mica. Well, fairly recently. And the President is going 
there in the near future. Isn't the largest source of marijuana 
coming into the United States from Mexico?
    Gen. McCaffrey. Well, it's hard to say because we don't 
know how much marijuana is produced in the United States. We 
have no accurate figures.
    Mr. Mica. Well, OK. Let's not consider domestic production, 
just foreign coming into the United States. Mexico is No. 1 for 
marijuana?
    Gen. McCaffrey. I think that's probably true, yes.
    Mr. Mica. And we're now about to send a United States 
Ambassador to Mexico, who takes a position in opposition to the 
administration. And, in fact, that appointment may be sending a 
message now, that it's not all that bad, particularly for 
certain purposes that the administration has--and I sent you a 
letter applauding you on your initial stand on this. But can't 
you see that through our actions--our policy may be one thing, 
but our actions are sending a mixed message. What do you think 
about this appointment?
    Gen. McCaffrey. Well, I think, again, it's unequivocally 
clear in writing, that the Attorney General, the Secretary of 
Health and Human Services, the Secretary of Education and I and 
others supported, obviously approved by the President, are 
unalterably opposed to the legalization of drugs or the 
surreptitious legalization of drugs under the guise of medical 
uses.
    Mr. Mica. Will you join me in asking the President to 
withdraw this proposed Ambassador?
    Gen. McCaffrey. No. I wouldn't think it would be 
appropriate, Mr. Congressman, for me to join that viewpoint.
    Mr. Mica. OK. Thank you. Last year it was revealed that 
President Clinton had accepted a $20,000 check from Jorge 
Cabrerra, a member of a prominent Florida Keys fishing and 
lobster family. The donation enabled Cabrerra to attend a 
fundraiser with Vice President Al Gore----
    Mr. Barrett. Mr. Chairman, I'd like to raise a point of 
order. I don't believe this is within the scope of this 
hearing.
    Mr. Hastert. Well, it probably is within the scope. I 
believe the parliamentarian says, this counsel says it's within 
the scope. I'll take it under reservation and discuss it later.
    Mr. Barrett. No. Could you give me a specific reasoning as 
to how this is within the scope of this hearing?
    Mr. Mica. Well, it deals--Mr. Chairman, may I speak to the 
gentleman's point? This deals specifically with an individual 
who smuggles $6,000 pounds of cocaine through the Florida Keys 
and----
    Mr. Barrett. Could he do it in an authorization bill?
    Mr. Mica. I have a very specific question. We are not 
dealing with an authorization and appropriations. This is a 
Government Reform and Oversight Committee investigative 
subcommittee.
    Mr. Barrett. Mr. Chairman, what is the title of this 
hearing today, please?
    Mr. Hastert. It is the authorization of the ONDCP. The 
ONDCP has jurisdiction over drug smuggling and the reduction of 
the use of drugs. I would see that it's appropriate. The 
gentleman's time has expired. And we'll move on to the next 
questioner, Mr. Blagojevich.
    Mr. Blagojevich, the gentleman from Illinois has no 
questions. The gentleman from Georgia.
    Mr. Barr. In followup to something that my colleague from 
Florida said, I think, General, that we had a discussion about 
this at your last visit here. I think that very clearly what 
the judge perhaps was reflecting is contained in page 59 of the 
1997 National Drug Control Strategy. The conclusion of the top 
paragraph on the left column it says, ``We must continue to 
oppose efforts to legalize marijuana.'' You say here today, 
``The administration is `unalterably opposed' to medicinal uses 
or legalization of marijuana.'' Yet you go right down--a 
paragraph and a half further down that page, and it says, 
``Nonetheless,'' and then talks about--and you follow this up 
with a letter to me, $1 million that you wish to spend that the 
administration wants to spend to study the medicinal uses of 
marijuana.
    I just fail to see very clearly that the administration can 
truly be unalterably opposed and then ask for money to study 
the issue. I think that is precisely where the confusion comes 
from. I'd like to turn, though, for a couple of specific 
questions, General, to another matter that concerns me. And I 
do appreciate the material that you and your office have 
furnished to me. And that is with regard to the legal basis on 
which your office expends moneys and deals with matters 
involving tobacco usage.
    And this has nothing whatsoever to do with all of our 
opposition, which I share and which I know the President feels 
strongly about as do you, too--tobacco usage by teenagers, by 
underage children. But just liking that as a policy and 
agreeing with it does not provide the legal basis for the 
Office of National Drug Control Policy to engage in programs 
and policies and promotions of anti-tobacco programs.
    And I still fail to see, even though in your kind letter to 
me you mentioned various provisions of 21 U.S.C. 1502 and 1507. 
There is absolutely nothing in those authorities that talks 
about tobacco as within the legal jurisdiction of your office. 
And, as a matter of fact, I truly believe, General, that the 
precise language of those sections supports my position that if 
this administration or any administration--and I know that you 
cite very correctly that a former administration sort of began 
this slippery slope in 1992. If, in fact, the administration or 
you want to engage in anti-tobacco efforts, as laudable as that 
may be, I think you need to come to the Congress--the 
administration does--and ask for the legal authority to do so.
    Because I don't think you have the legal authority. And I 
intend to make that an issue. For example, in 21 U.S.C. 1507-1, 
the term drug is defined. And it refers very clearly to 
controlled substances. Tobacco is not a controlled substance, 
no matter how much people might want it to be, no matter how 
much people might want to, for various reasons, good or bad, 
substantive or political, to make it so. And I continue to have 
a very serious problem with your office engaging in activities, 
expending moneys, designed to stop tobacco usage.
    I do think that if you believe that that is something that 
is an important part of the overall drug strategy. Maybe it is. 
Maybe it isn't. That you lay out the case and propose an 
amendment to the authorization legislation that provides for 
the jurisdiction of the Office of National Drug Control Policy. 
Because I don't think that power is there, the legal basis. As 
a matter of fact, I think it is very clear that it isn't there. 
And, again, I appreciate you corresponding with me on this. Is 
there anything you want to add to the record today over and 
above the letters that you sent me?
    Gen. McCaffrey. Well, I certainly understand your concern. 
In fact, I think I share it. That's why in this reauthorization 
bill we do explicitly ask you to put aside those concerns and 
specifically enumerate gateway behavior by tobacco and alcohol. 
So I share your conviction that we ought to come to Congress 
and explicitly ask you for this authority. And that's what I've 
just done. Now, the second thing I would argue, though, is that 
what you've cited is the Controlled Substances Act.
    And what the 1988 law told us in ONDCP to do was establish 
policies for the drug program. And that certainly includes the 
right to do comprehensive, demand reduction efforts, which from 
President Bush on has, I think, quite wisely encompassed the 
reduction of use of illegal substances by adolescents. So, it's 
unquestionable that alcohol and tobacco are illegal substances 
for use by youngsters. We have found the evidence of University 
of Michigan and Columbia University, in particular, quite 
persuasive that smoking and alcohol use does indeed inexorably 
set one up for higher risk correlations of later addictive 
problems in life. But I do agree, Mr. Congressman, I ought to 
get from you explicit authority. And it will put aside some of 
these questions.
    Mr. Barr. Could I just ask one very quick followup 
question, Mr. Chairman? Will you then be recommending to the 
President that he send forward to the Congress a specific 
proposal for providing that explicit authority or jurisdiction?
    Gen. McCaffrey. Mr. Chairman, it's in the bill I sent over 
here. This hearing is on----
    Mr. Barr. In chapter 20, so that it would appear--the 
language would appear in chapter 20.
    Gen. McCaffrey. Yes. It's in----
    Mr. Barrett. I'm looking at page 2 of the bill. It appears 
that there's----
    Gen. McCaffrey. Yes. It would be in our authorization and 
definition aspect of drug control.
    Mr. Barr. OK.
    Gen. McCaffrey. We will exclusively ask you----
    Mr. Barr. But would it be amendment to chapter 20 of title 
21? Is that where it will be?
    Mr. Barrett. Mr. Barr, I'm looking at page 2, lines 11 
through 16.
    Gen. McCaffrey. I can try and provide you a written 
response. But it will be in 21.1507 under definitions.
    Mr. Barr. OK. Well, that's in chapter 20 of the----
    Mr. Hastert. The gentleman's time has expired. The 
gentleman from Wisconsin, Mr. Barrett. Gen. McCaffrey, I would 
like to ask you a couple things. First of all, in the issue of 
reauthorization, which I think we need to talk a couple minutes 
about. I tend to agree that we probably need to have a 5-year 
budget authorization. I see the need for planning to make sure 
that the equipment and strategies are in place over a period of 
time. I question whether a 12-year authorization is something 
that we'd want to do. I think things change. People change. 
Administrations change. Drug Czars change. And certainly the 
changes that you brought about, bringing in new ideas and 
different approaches from your predecessors have certainly been 
noted and marked. I'm not sure that we'd want to be bound under 
a policy that was set under one administration and one person, 
and drive that policy when people come and go and change. And 
I'd like your reaction to that.
    Gen. McCaffrey. Well, I think your point is a good one, Mr. 
Chairman. The only thing I would, though, suggest is, you'll 
still pass budgets every year. Every dollar will have to be 
appropriated by Congress. And the Director of ONDCP will still 
have to come down here and explain the 5-year request and what 
they did or did not accomplish. I think second, the way we 
wrote that, it said that the strategy would still have to be 
updated, and the Director ought to explain--I mean, this is a 
dynamic problem. With any luck, 10 years from today, cocaine 
will not be a major drug of abuse in America.
    But the problem may well be that methamphetamine and 
boutique drugs will be. So, I think you'll still have clear 
authority to demand hearings and to adjust this strategy as the 
situation evolves. So, again, I think what we've got is--we've 
got a request on my part for you to consider that this is a 
permanent challenge to our children, to our schools, our work 
places, that the mechanism that we put in place ought to be 
responsive to congressional interest. But the problem won't go 
away.
    What we want to do is manage it down until it's causing the 
least amount of anguish. I think ought to commit to a decade. 
And 12 years, apparently. We just said 2 years beyond a 10-year 
strategy.
    Mr. Hastert. Well, I think we need to get your view. I 
think we'll have this as a point of issue and discussion.
    Gen. McCaffrey. Yes.
    Mr. Hastert. And furthermore, I would just say that one of 
the things that I would hope we'd have in 10 years is a drug 
free America. I hope that we can fight this war week by week, 
day by day, month by month, and have some achievement there.
    Gen. McCaffrey. Mm-hmm.
    Mr. Hastert. And as that fight progresses through the 
years, I think maybe we need to sometimes change our strategy.
    Gen. McCaffrey. I agree. Yes.
    Mr. Hastert. I'm sure that if a general is going to place 
and fight a war, I'm not sure a 10-year strategy is always in 
place without some changing of it from time to time. But that's 
my own opinion.
    Gen. McCaffrey. Mm-hmm.
    Mr. Hastert. At this time I'm going to yield to the 
gentleman from Illinois, Mr. Blagojevich.
    Mr. Blagojevich. General, I was very impressed with the 
information that you provided with regard to the eighth graders 
and marijuana use and the rise of marijuana use among eighth 
graders. What specific policies are being implemented by your 
office or being discussed by your office with regard to 
addressing that problem that clearly can only get worse unless 
we meet the challenge head on?
    Gen. McCaffrey. Well, the Department of Education, in 
particular, but also Health and Human Services and, indeed, 
Department of Justice, have a series of initiatives that we 
think are enormously important. I might also add that this is 
not only a Federal responsibility and the kind of work we saw 
endorsed by Gen. Powell and the President and others in 
Philadelphia are part and parcel of it. We think the reduction 
of drug abuse among children is primarily a function of 
parents, educators, local coalitions. And that's the heart and 
soul of it.
    Now, having said that, we're also asking Congress, Mr. 
Kolbe and his committee, to support $175 million a year for 5 
years, where we'll also go back, after a matching pro bono $175 
million. Partnership for a Drug Free America and the 
Advertising Council are assisting us with this. And we're going 
to try to talk to adolescents and their parents through the 
medium they're watching, through what is being used to instruct 
them. But I think it's a whole array of issues, and that the 
heart of and soul of it is not just the magnificent 
contributions of the D.A.R.E. program. You've got to have more 
than that. Something has got to happen between 3 p.m. and 7 
p.m.
    Mr. Blagojevich. Mm-hmm.
    Gen. McCaffrey. And so mentoring initiatives and a whole 
series of other approaches--safe and drug free schools. The 
1998 budget, we've got $620 million in there. We know we've got 
to be more responsive to Congress and make that it produces 
outcomes that I can explain what we did with the money. But we 
think we've got a pretty good effort.
    Mr. Blagojevich. General, just quickly, did you say $620 
million?
    Gen. McCaffrey. In the 1998 budget. It's an increase of 
some $64 million--11.5 percent.
    Mr. Blagojevich. And that money would be specifically 
earmarked to send back to community groups or local governments 
that match funds at the local level? Is that what you were 
saying?
    Gen. McCaffrey. One of the challenges, of course, when you 
get into programs like this, is finding out where block grants 
go and how effectively they are spent, and what constraints do 
you put upon them. So I think Dick Riley and I and others have 
to ensure we deliver the goods. But, yes, that's where that 
money is going.
    Mr. Blagojevich. Thank you, General.
    Mr. Hastert. The gentleman from Florida is recognized.
    Mr. Mica. Thank you. General, I'm glad to see that you did 
get a hearing or opportunity to explain your side of the 
situation with the----
    Mr. Hastert. Did the gentleman have a specific question of 
the Chair?
    Mr. Mica. Yes. I'm referring to the report that he referred 
to with Mr. Goss' Intelligence Committee. Because the--I can't 
think of a better term--but the screw up of having our highest 
folks dealing with the drug war, dealing with an involved drug 
czar from another country and our not knowing about it is a 
matter of importance if we're going to be funding these kind of 
programs, particularly over a long-term period. So, I'm pleased 
to see that my request was adhered to for that.
    Along the same lines, I'm still concerned that in funding 
you in a multi-year fashion that we send the wrong signals. I 
believe that having a convicted drug dealer or a drug dealer 
actively involved in drug trade getting an invitation to the 
White House. I took my mother-in-law to the White House for a 
Christmas party. They checked her out. I would expect that the 
President of the United States, the Vice President and the 
First Lady should have some assurance that we have some program 
in place that, in fact, that these highest individuals aren't 
sending the wrong message by having these folks as their 
guests.
    So, that is a concern in this multi-year funding. And also 
a congressional report that the Cabrerra donation was requested 
of him while he was in Havana on a business trip. So, I'm 
wondering why we find ourselves in this situation, why we don't 
have good intelligence. Are we putting enough resources in 
these areas? And do we have controls and policy in place to 
deal with these situations under your proposed multi-term 
budget?
    Gen. McCaffrey. Well, the piece of the question that I 
guess I could respond to is, how good is our intelligence on 
foreign drug operations. And the answer is, it's pretty good. 
And it ought to be better. And it has difficulty. We don't get 
the appointments of the Government of Colombia or Mexico or--in 
the case of Gutierrez Rebollo, I think that Minister Cervantes 
and others were shocked and dismayed to find that they had 
pulled up a general officer who turned out to be a, apparently, 
a stooge of another drug gang.
    We had a DEA office that had worked in that city of 
Guadalajara with him for 7 years and had not picked up on the 
fact that he was apparently an employee of the ACF gang. So I 
think we probably need to and we are scrutinizing how we go 
about learning more about the drug threat. But we do a 
remarkable job, by and large, of following smuggling routes, 
interdiction routes. Our biggest problem may well remain 
picking up Minister of Defense Boterro, that he was an active 
recipient of millions of dollars of drug money from a Colombian 
drug gang.
    Mr. Mica. The other area, General--you know that I'm very 
supportive of you getting the money on a long-term basis or 
whatever-term basis you need it. The problem I have is still 
the issues like the 614, where we have equipment on the shelf, 
where we have funds already appropriated, and we can't get the 
equipment to Colombia in this instance. I have 14 waivers that 
the President granted. One for Serbia, Montenegro, Haiti, 
Somalia, Jordan, the list goes on and on. And since last year I 
wrote him, and again, we still don't have that equipment.
    So what assurance do we have even if we go to a multi-year 
that we can even get the equipment that's on the shelf or 
already appropriated to these folks? And then I read today that 
Myles Frechette says, ``Oops. I made a mistake. This is going 
to the police. And we may not even have had to have some type 
of consideration by the state to oppose this.'' It doesn't seem 
like we've got our act together.
    Gen. McCaffrey. Well, I think we're working the 614 
authority. We have not yet deliver the helicopters. We think 
we've got a shipping date on an American flag ship. We think we 
will get them there in May or June. There are problems with in-
use monitoring agreements and human rights. We'll have to face 
up to the Leahy amendment and try and deal with it. We are 
still a Nation of laws, and we can't unilaterally direct these 
things to happen. But I share your dismay. And, Mr. 
Congressman, I will assure you it will get my attention. And we 
will try and support the police and army of Colombia. They 
deserve it.
    Mr. Hastert. I thank the gentleman. We have a vote on. And 
I know you have a time constraint, General. We will come back 
in approximately 10 minutes and make sure that you're out of 
here by the time that you have to be out of here. And I just 
want to say thank you very much for your cooperation and 
candidness today.
    [Recess.]
    Mr. Souder [presiding]. I'd like to call this hearing back 
to order. Thank you for being patient as we go through these 
voting processes. I have some additional questions, some of 
which are variations of some earlier questions. But I want to 
work through the record and talk. One is regarding Colombia. 
And I understand during the period I was gone you had some 
discussion about the helicopter assistance 614 Waiver.
    But the particular concern we have--because we've had Gen. 
Serrano here in front of us, here. When we were in Colombia 
last year, we met with Gen. Serrano. While we have and share 
your concerns about the head of Colombia, there's certainly no 
question in his record that they've been fighting the drug war. 
Many of their police have died. I don't believe there are any 
human rights allegations against him. And our question is, why 
are his helicopters being held up, since the allegations are 
not against him?
    Gen. McCaffrey. Mr. Chairman, I would probably be better 
off providing you an update for the record. I'll go back and 
check the specifics. The bottom line is we are committed to 
supporting the police and the Army of Colombia. We're also 
committed to following the restrictions of U.S. law, which 
requires us to take into account these very legitimate concerns 
about human rights, in-use monitoring agreements, and to ensure 
that the support goes to the counter-drug fight and not to 
counter-narcoguerrillas.
    Now, having said that, there has been a continuing problem 
to get the appropriate concurrence of Colombian authorities, 
and to get the agreement of lawyers throughout the United 
States Government that we satisfy these requirements. I think 
we have finally--we're about to solve the problem. And I will 
try and come back to you and give you an update on what 
remaining difficulties there are.
    Mr. Souder. Yes. As we talk with the leaders from the 
different countries--when people are actually out there 
fighting and dying as aggressively as Gen. Serrano. And I 
understand that this has been a concern in multiple countries, 
not just in Colombia, but in multiple countries as far as the 
human rights question. But I don't believe--and my 
understanding, unless you have something different for the 
record, that the allegations aren't in the area or even the 
concerns aren't in the area where the helicopters would be 
going. In other words, there are some questions regarding the 
Defense Department and concerns about the agreement. But you're 
not saying there's any concerns about Gen. Serrano's human 
rights record, are you?
    Gen. McCaffrey. No. Not about him personally. I think 
there's been human rights abuses on a massive scale throughout 
the region. They've made a tremendous effort to improve them. 
Serrano has fired hundreds of corrupt cops. But I think there 
is a very deep concern on the part of our human rights 
community about the police, the Army, the institutions of 
justice. And I might add, a third of the country isn't under 
the control of Colombian authorities anyway, it's under the 
control of narcoguerrillas. So, we do have a problem. We're 
going to have to face up to it.
    Mr. Souder. We're concerned that this has been--it was 
promised 8 weeks ago. I appreciate the update. I hope you'll 
keep the pressure on the administration. Because I don't know 
how we proposed the--I mean, we heard very explicitly what they 
need the helicopters for. I don't know how we can continue to 
encourage them and not help equip them when they're doing a lot 
of our fighting, because we haven't reduced the demand here in 
our country. And it's something that we're very concerned 
about. I share human rights concerns. I have some question 
about--and I think it's important for the record--you're not 
saying Serrano, when allegations occur, isn't dealing with 
those?
    Gen. McCaffrey. Well, I have----
    Mr. Souder. You're saying he hasn't had any allegations, 
but you said there were people in the national police. But his 
record has been as aggressive.
    Gen. McCaffrey. Sure.
    Mr. Souder. We don't have any complaints against the 
national police?
    Gen. McCaffrey. None. None at all. As far as we know, we 
have great respect for Gen. Serrano's leadership and integrity.
    Mr. Souder. Our big concern--and I think this is important 
to be communicated--is that he hasn't used his leverage for 
some other battle. Because if they're going to him, and there's 
no complaints against him, and we're trying to use our ability 
to crack down on narcoterrorists and the drug people 
indirectly, even though this has been promised multiple times, 
it starts to undermine our credibility. And I think it's 
important, since it's been promised multiple times, to move 
this ahead and, if necessary, figure out several tracks here. 
Because I don't believe the national police are under question.
    If I can move to another area. Understanding that you're 
going to get back to us. And I assume you've heard our grave 
concerns from multiple members here. I wanted to move into the 
question of the National Guard. At a strategy hearing we had in 
February you testified that the excellent work that the 
National Guard is doing to support our counter-drug efforts. 
And we've had several hearings with the National Guard. And I 
wholeheartedly agree that they've done an important work. And 
that's why I'm concerned. Our committee is concerned about why 
you had a $30 million decrease in funding for the National 
Guard in the President's request. Can you explain why you would 
want to cut funding for such an important part of our counter-
drug effort?
    Gen. McCaffrey. Well, I've had a conversation with 
Secretary Cohen. I went over and saw him about that and other 
matters in the defense area. And I think one of the principal 
problems facing DOD is maintaining an adequate defense given a 
very constrained budget. And in that constrained budget the 
answer has been that the National Guard percentage essentially 
remains unchanged: it's 23 percent of the total counter-drug 
DOD percentage. And when you get into State plans, there was--
it's historically at 16 percent.
    It's been higher. But that's about normal. The whole pie, 
though, has gotten smaller. And so the Guard's State plan 
efforts has been cut. It requires more funding in our judgment. 
But I'd be hard pressed to have suggested to SECDEF that he 
should cut other pieces of his counter-drug effort and provide 
the money to these National Guard efforts. So I've asked him to 
consider it and to come up with his own thinking. And we'll 
have a further discussion of it. And I will get back and try 
and resolve this concern. DOD's total funding is actually 
pretty good. We're up at about $1.6 billion.
    If you take out the supplemental you gave us last year of 
$168.3 million it, in fact, is an increase. But I think the 
National Guard does need more funds. We're going to attempt to 
see how we can do it.
    Mr. Souder. We're very concerned, because it impacts every 
State, particularly a lot of the States along the border where 
they're doing unique services and the cut is 30 percent, which 
is a fairly significant cut. So, we'll continue to work with 
you. But take this as that we're deeply concerned. I have some 
additional questions, but I'll go to Mr. Barrett.
    OK. Another--I know that you and the President are, in 
general, working with Mexico and are visiting there soon. But I 
wanted to ask you a series of questions not so much about what 
you've necessarily done in this interim from the time we 
certified Mexico. If you have anything in the interim you can 
add this here but concerns that I hope you will address there 
and can report back the progress on after your trip. One is 
progress with Mexico and allowing DEA agents to carry firearms 
while assisting Mexican counter-drug operations.
    Second is obtaining assurances from Mexico that the 
additional DEA agents that Congress appropriated can be 
stationed in Mexico, what commitments they have made to root-
out the endemic corruption in their counter-drug efforts. The 
good news is that they seem to be making efforts. The bad news 
is that they're finding them in such high level places. But we 
want to be kept posted on what they're doing to get rid of the 
endemic corruption, not just the occasional. Have they made any 
headway on the over 100 outstanding extradition requests 
currently pending with Mexico?
    I understand they say that they have extradition requests, 
too. But there's a question of scale and potency of these 
requests. And we want to hear what progress we're making. 
What's the status of our efforts to get a permanent maritime 
agreement with Mexico? So, those are among the questions that 
we've raised in the House, that, hopefully, if you don't have 
any additional updates on that now, which I would welcome you 
to give if you do, that you can, once again, inform us upon 
your return what progress you've made.
    Gen. McCaffrey. I'd be glad to do just that, come back here 
and update you.
    Mr. Souder. OK. Another question is, in regarding 
certification, in December 1996, in the State Department IG 
report, Assistant Secretary Gelbard was quoted as saying, 
``Since its inception in the mid-1980's the President's annual 
certification process has emerged as one of the most powerful 
tools in the conduct of our foreign drug control initiatives.'' 
Do you agree with this?
    Gen. McCaffrey. I think it has been. You know, a lot of 
good has come out of it. It has focused the energies of the 
executive branch. The Secretary of State has the lead for this 
process. It has, as the President of Bolivia just said in an 
international conference on Monday, it's been a major factor in 
driving drug money out of the electoral process in Latin 
America. It has clearly galvanized many of us to even greater 
efforts.
    Now, having said that, the other side of the coin is--and 
it really came over me in the Carter Center listening to nine 
former or currently serving Heads of State of Latin America--it 
has damaged the central notion that we can only confront the 
drug issue in cooperation with international allies. It's 
causing us a major difficulty. It's viewed as a direct 
offensive interference in the internal sovereignty in another 
nation. It allows the argument to come up--and it shouldn't 
come up--between partners, who are you to talk, you whose money 
and weapons drive this criminal process.
    So I think there's been great damage. And I really have 
welcomed the thinking of people like the Speaker, Newt 
Gingrich, who was at this conference, and had some very 
creative, forward-thinking words. Sen. Coverdell has really 
pushed us to rethink the issue. We made need a higher order way 
of multi-national cooperation, perhaps in addition to 
certification, to try and remove this problem.
    Mr. Souder. It's kind of an ironic position here that--a 
minute ago when we were talking about releasing helicopters to 
the national police of Colombia, which are being held up 
because we can't agree on the exact language of some 
relationships with their defense department, which is intense 
micro-managing, there's an incongruity. That we have to decide 
that when we're doing trade with countries, when we have opened 
processes, that we have a right to say that we expect you to do 
certain things, or the American taxpayers have a right to have 
certain actions.
    I, too, share a concern that that is sometimes taken as a 
holier than thou position and sometimes looking down the nose 
as ugly American. And I've tried to be careful with my rhetoric 
in regards to Mexico, to be precise that we're fighting an evil 
which is shared by many of the concerns in Mexico. But that 
doesn't mean that I don't have a right to defend the taxpayers 
of Indiana. And it also doesn't mean not just in the drug area, 
but in the human rights area. And it also comes into most 
favored nation status, that we don't have a right as America 
without pronouncing--in other words, I'm not sure sometimes 
we'd certify ourselves if you look at some of the areas.
    In other words, in States where they're legalizing 
marijuana, at least for not only medicinal purposes, we might 
have some internal problems. But the fact is that we're facing 
in the international area, some of these types of questions. 
And I think it's important that we take a strong stand as our 
country. And the review process has been working. So, I think 
your statement was very effective at the beginning. And I hope 
the latter part of that isn't taken that we should be backing 
away. What we need to figure out is how to keep the partnership 
going but still keep our flexibility here. With that, I yield 
to Mr. Barrett from Wisconsin.
    Mr. Barrett. Thank you. Gen. McCaffrey, GAO has recommended 
that ONDCP develop an after-action reporting system top review 
counter-drug operations after their completion, assessing their 
strengths and weaknesses. The purpose is to learn lessons from 
the past to plan more effective future operations. Do you agree 
with the GAO's recommendation?
    Gen. McCaffrey. I think I do. Let me say that, when I do, 
that I have been watching this process at work in the 
Department of Defense for 30-some-odd years. And I would be--if 
we do that, we need to ensure that we don't spend a ton of 
money to develop an automated system that produces reams of 
unexamined data in the years to come. So I think ONDCP should, 
indeed, be a center for institutional memory of what works and 
doesn't work.
    But I'm more inclined to say that we need to go to 
performance measures of effectiveness to get targets to measure 
outcomes and to be able to show you dollars in, results out. 
And, oh, by the way, to learn from it. Because some of these 
programs aren't going to work and others are going to work 
spectacularly. I noticed the GAO report had cited the CALL 
system--Center for Army Lessons Learned. And, you know, we've 
done a lot of work on that. We just have to be cautious that we 
don't build another giant data base that doesn't influence real 
people like Tom Constantine, Director Freeh and others.
    Mr. Barrett. OK. Earlier this week I think you issued a 
statement on the sentencing guidelines and the treatment of 
crack cocaine versus powder cocaine. Can you capsule that for 
us and give us your reasoning for you thoughts on that issue?
    Gen. McCaffrey. I think the mandatory minimum sentences and 
the sentencing commission have been concerned that--there was 
some very good rational thought that went into this in the 
beginning. There was a concern that crack was more rapidly 
addictive than powdered cocaine--that tends to be the truth--
that crack was more closely associated with violence, with 
child abuse, with domestic abuse in general--I think that 
tended to be the case--and because, to deter those crimes, we 
needed a much lower threshold for possession of crack or sales. 
So we rolled into that.
    But I think over time what's happened is we've developed an 
institutional problem. One of them is we've ended up with an 
African-American population of 11 percent of America. Thirty-
three percent of the arrests for drug related offenses were 
African-American. And 48 percent of the people in prison were 
African-American. So we ended up with the appearance of racism 
in our judicial system. I don't think that was there. But I 
think the outcome has caused serious American concern. Now, the 
second thing that came out of that was when I listened to the 
people in the corrections system, who are locking up 1.6 
million Americans, a figure that's growing enormously, they say 
that these floors and the mandatory minimums weren't 
necessarily helping solve the drug problem, a position that I 
largely agree with.
    You've got to have drug courts, punishment and treatment in 
some sync, rather than just telling young men, this offense is 
7 years, that one is 15 years. That isn't what actually affects 
behavior of young people doing crimes. I think the sentencing 
commission has rethought it. I welcome their initiatives. The 
Attorney General and I have been ordered by the President to 
examine their findings. And I hope we can end up with a perhaps 
more helpful and better received policy in the country.
    Mr. Barrett. As you know, when Congress considered this 
issue last session, the recommendation was to equalize the 
treatment, and to equalize it by lowering the penalties for 
crack cocaine. And that was defeated by Congress. And 
ultimately the sentencing commission recommendations were 
signed into law by the President. What advice do you have to 
us--again, the perception, I think, among some politicians, at 
least, is if you do anything at all to even minimally lower the 
penalties for crack cocaine, that you're sending the wrong 
message. As the drug czar in this country, what is your 
response to that?
    Gen. McCaffrey. I think that--look, at the end of the day 5 
years from today, I would hope that we're going to continue to 
have less crack cocaine and powder cocaine abuse in America. 
The prevention program has been working for 10-15 years. New 
initiation of cocaine use has come down 60 percent in 10 years. 
But a lot of that is because people see the wreckage of human 
life when addicted to crack. African-Americans are using less 
crack than caucasians because there has been more visibility on 
the devastating impact of it.
    If you watch crack sales in one of these big cities at 8 
p.m., in many cases it's an African-American male selling to 
people out of the suburbs. Now, the bottom line is, I think 
we've got to remember what our purpose is: it's to reduce drug 
abuse and drug sales and not to put people in prison. We need 
drug treatment combined with the threat of incarceration. We've 
got too many people in prison. It's not helping the drug effort 
at all. That's my own viewpoint.
    Mr. Barrett. Thank you. I yield back my time.
    Mr. Souder. My friend Mr. Barr from Georgia.
    Mr. Barr. Thank you, Mr. Chairman. It's my understanding, 
General, that just within the last few days, I think--and I'd 
just like to ask you to clarify this--it's my understanding 
that a new extradition bill or a piece of legislation or 
constitutional provision was drafted and presented to the 
General Assembly down in Colombia. Could you tell me exactly 
what that was and what the status of it is?
    Gen. McCaffrey. Mr. Congressman, I'll have to give you an 
answer in writing. I've been following the extradition issue in 
Colombia for 5 years now. It is not clear to me--our internal 
Government viewpoint is that it's not yet likely that it's 
going to pass. And we're pushing them pretty hard on it. We 
think, in accordance with international law with the 1988 U.N. 
convention, that it ought to pass, that civilized nations ought 
to have extradition so that offenses committed against another 
country can be punished in that country. I don't know how this 
is going to come out. I simply can't tell you. And I'd rather 
go back and review the evidence on it.
    Mr. Barr. I'd appreciate it. And it doesn't have to be 
anything formal. Just have somebody give me a call. Because it 
sounds to me like at least it's some movement in the right 
direction.
    Gen. McCaffrey. The only thing that gives me pause for 
thought is, there are two things these international criminals 
fear. The biggest one is extradition. And the other one is 
asset forfeiture. So, the notion of being hauled out of 
Colombia and made to stand trial and imprisoned in the United 
States is one that they are adamantly against. And that's why 
the threat of violence and corruption on democratic 
institutions on that issue has been so extraordinary. I hope 
they do it. It's the right thing to do in accordance with 
international law. And that's what we're pushing them to do.
    Mr. Barr. OK. Well, if you or somebody from your office 
could get back to me and clarify that I'd appreciate it. Let me 
return to the issue of the legalization of marijuana. I don't 
need to recite all the terms or the definition of a schedule 1 
substance other than to make clear for the record for purpose 
of our discussion here, that a schedule 1 substance is a 
substance which ``has no currently acceptable medical use and 
treatment in the United States.'' And there are, of course, 
other criteria as well.
    I do have a very serious concern about any effort on the 
part of our Government given the fact that, as I understand it, 
we still do consider marijuana a schedule 1 substance. And, 
therefore, I have to believe that this administration continues 
to believe firmly and has the basis on which to back it up that 
marijuana, as a schedule 1 substance, meets the criteria in 21 
U.S.C. 812 1A, B and C. That being the case, why would we want 
to study whether or not it has therapeutic uses, which is the 
work that's used in your drug strategy, which is a strange 
word.
    I'm not quite sure what that means. The schedule 1, as the 
other schedule substances talk in terms of medical usage, not 
therapeutic usage. Therapeutic is a very, very, I think, vague 
word that is applied to many other sorts of procedures other 
than medical procedures. And it worries me that the 
administration is considering some sort of effort possibly to 
allow the usage of marijuana if it, quote--and this is a quote 
from page 59 of your drug strategy--if it ``could have 
therapeutic uses.'' Could you clarify this anymore than in 
previous discussions we've had? Because it really, particularly 
in light of the court decision that my colleague from Florida 
referred to earlier today, is a serious concern. Because I 
think this type of language is directly undermining our effort 
to continue to hold the line against marijuana usage.
    Gen. McCaffrey. Well, Mr. Congressman, I absolutely share 
your concern. And I won't recite the list of major medical 
organizations. But literally all serious professional medical 
organizations in this country support the viewpoint that the 
National Institute of Health and the FDA, using a scientific 
process, should be the manner, the protocol by which we deem 
medicines safe and effective. And marijuana, smoked marijuana, 
is still a schedule 1 drug believed to have no known medical 
benefit and poses great harm. That's the viewpoint based on the 
evidence generated by decades of research.
    Mr. Barr. But why then--and I don't mean to cut you off--I 
certainly want you to finish your train of thought--but why 
then would we waste 1 penny, much less $1 million that we could 
be using, I think, much more effectively in some of your other 
programs, to study this issue, if that is, in fact, the 
position which is firmly backed up, as I believe it is, by the 
medical community and the medical experts in our Government?
    Gen. McCaffrey. Well, let me just go on to suggest that 
smoked marijuana was studied intensively in the 1980's. And out 
of that came the viewpoint that one component of the 435-some-
odd components--THC--did potentially have medical benefit. It 
was made available for 15 years. It's been in pharmacies, 
suspended in an oil called marinol. There are problems with it. 
It isn't used much at all. In 1997, it's hard to imagine 
prescribing THC for management of pain or for that matter 
nausea. There are two other drugs that work far better.
    Now, having said that, however, it's hard to disprove a 
negative. There may be other compounds in smoked marijuana that 
do have benefits. And the door ought to be open to scientific 
inquiry to determine that. That's why we--the $1 million was to 
review existing scientific literature that----
    Mr. Barr. But why do we need to, I mean, with all of the 
things out there that we could be doing?
    Gen. McCaffrey. Because two States--well, let me answer the 
question. Two States voted to do just that. And we have 
enormous pressure, some of it by drug-legalizing forces, others 
by legitimate communities, to have us look at this question. 
And, so, I think, from a scientific viewpoint, we should not be 
threatened by the examination of claims. And the $1 million was 
review the existing literature and make sure we know what we're 
talking about. Then the NIH will conduct serious inquiry, 
narrowly focused, on whether there actually is medical benefit 
from smoked pot.
    Mr. Barr. Where did this term ``therapeutic'' come from and 
what does it mean? Because when you use the term ``medical,'' 
to me that is--as used in the statute, also--a very specific, 
precise term. Why did you switch over to the use of a much 
different term in the drug control strategy, this term 
therapeutic?
    Gen. McCaffrey. Well, I think the whole notion was, is it 
the case medically that smoked pot, that we know to be a 
carcinogenic, intoxicating substance, does it actually have 
benefit for the relief of AIDS nausea, chemotherapy, pain 
management, glaucoma, et cetera. That's the notion in which 
therapeutic was implied.
    Mr. Barr. But are we going to start applying--see, this is 
the slippery slope and the open door problem here. Do we then 
start talking in terms of this broader concept of therapeutic 
uses for other drugs as well? I mean, somebody else comes in 
and claims that some other controlled substance other than 
marijuana and THC has therapeutic uses--and I suppose it does. 
It makes some people feel better. That's a therapeutic use. 
Don't you see the danger of starting to change very subtly 
here, by the use of terminology, what we're trying to do here?
    Gen. McCaffrey. Yes.
    Mr. Barr. And don't you see the slippery slope?
    Gen. McCaffrey. Well, I hear your concerns. Let me take 
that into account. It's certainly not my intention to do 
anything but say we have a scientific medical process. We have 
the best medicine on the face of the earth. We got there by not 
allowing laetrile, thalidomide or smoked marijuana to end up as 
medicines. But if these substances can demonstrate a legitimate 
scientific benefit, then, of course, the door would be open.
    Mr. Barr. But nobody has done that yet, have they?
    Gen. McCaffrey. Done----
    Mr. Barr. Exhibited that?
    Gen. McCaffrey. Well, it's been tested.
    Mr. Barr. Provided that scientific evidence.
    Gen. McCaffrey. Well, no. It was tested. And out of it came 
the determination that THC did have medical benefit out of that 
process----
    Mr. Barr. But that predates the inclusion in the controlled 
substances list, doesn't it? That was done quite some time ago.
    Gen. McCaffrey. Well----
    Mr. Barr. It may not predate a--I mean, you're talking 
about something that done a long time ago.
    Mr. Barrett. Mr. Chairman, regular order.
    Gen. McCaffrey. Well, no. I think there's been continuing 
investigators, and there are still attempts to study the 
potential benefit of medical marijuana. That's why we have a 
genuine issue. I wouldn't, Mr. Barr, negate the fact that there 
is an issue at stake here to be confronted. My viewpoint has 
been the easiest way to do this is to use science to determine 
the outcome. You know, I don't think we're going to sign up for 
thalidomide.
    Mr. Barr. But shouldn't----
    Mr. Barrett. Mr. Chairman, regular order.
    Mr. Barr. To be consistent that----
    Mr. Barrett. Regular order, Mr. Chairman.
    Mr. Barr. That we have made that determination and that 
that is----
    Mr. Barrett. Mr. Chairman, regular order, please. We are 
well beyond the 5 minutes.
    Mr. Barr [continuing]. In the tradition of the Government.
    Mr. Barrett. Mr. Chairman, would you please rule on my 
statement?
    Mr. Souder. Let him finish this last question. But what I 
would ask of Gen. McCaffrey, if you'll be willing to come back 
in June. Partly, we can followup on Mexico. But to pursue some 
of these kinds of questions which I know you're concerned 
about, too. I think this is actually an important sub-part 
inside the report that we're dealing with. But I know we also 
made a commitment to get you out of here at 1:30 p.m.
    Gen. McCaffrey. I'd be delighted to return.
    Mr. Barr. OK. And that last question was, that shouldn't 
the position of our Government, if it truly is that we are, in 
your words, unalterably opposed to the legalization of 
marijuana, shouldn't the position of the administration be very 
clearly enunciated that we have made the determination that it 
should continue to be a schedule 1 substance with no legitimate 
medical use? Why should we fuzz that up?
    Gen. McCaffrey. Now, the legalization of marijuana, I would 
suggest, is a different question than whether it has medical 
benefits. Methamphetamine, the amphetamine family, are schedule 
2 drugs. They have medical benefit. Cocaine is used for eye 
surgery, cocaine products. So, there's no where that the door 
is completely open to any chemical substance that might benefit 
American doctors. So far, smoked pot doesn't fall in that 
category. One of its components does--THC. And we'd certainly 
be glad to examine the validity of that assertion, in response 
to what has been a pretty strong demonstration of interest 
along those lines.
    Mr. Souder. I thank the gentleman from Georgia. And I want 
to thank Gen. McCaffrey for spending so much time with us 
today. We wish you the best in coming back with direct progress 
from Mexico and also in your work in prevention and treatment 
areas. And thank you again. We'll look forward to continuing to 
work with you.
    Gen. McCaffrey. Thank you, Mr. Chairman.
    Mr. Souder. With that I would like to welcome our next 
panel. And now I would like to introduce Mr. Norm Rabkin. Mr. 
Rabkin is the Director of Administration of Justice Issues at 
the General Accounting Office. Rabkin, is that the correct way 
to say your name?
    Mr. Rabkin. That's fine. Thank you, sir.
    Mr. Souder. OK. If you'd please stand and raise your right 
hand, I'll swear you in.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness has 
responded in the affirmative. And Mr. Rabkin, if you could 
introduce Mr. Ford and Ms. Lillie-Blanton for the record so 
that we have that--all three of you were sworn in and took the 
oath, responded in the affirmative. But I didn't get the names 
before I did that.
    Mr. Rabkin. Certainly. I'm pleased to be here today to 
discuss the General Accounting Office's views on the 
reauthorization of ONDCP. And with me are Jess Ford, who is 
responsible for GAO's work on international drug control 
issues, and Marsha Lillie-Blanton, who is responsible for GAO's 
work on drug abuse, prevention and treatment.
    Mr. Souder. Thank you very much. And I look forward to 
hearing your testimony.

STATEMENT OF NORMAN RABKIN, DIRECTOR, ADMINISTRATION OF JUSTICE 
 ISSUES, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY JESS FORD, 
 GENERAL ACCOUNTING OFFICE, AND MARSHA LILLIE-BLANTON, GENERAL 
                       ACCOUNTING OFFICE

    Mr. Rabkin. I have a prepared statement. If it could be put 
in the record. I have a very short summary that I'd like to 
offer.
    Mr. Souder. Without objection, so ordered.
    Mr. Rabkin. Thank you. Over the years, Mr. Chairman, the 
GAO has issued numerous reports on the Nation's drug control 
efforts. These reports show a consistent theme: the Nation's 
effort to control illegal drugs is complex, fragmented among 
many agencies, and hindered by the absence of meaningful 
performance measures for gauging the progress and guiding 
decisionmaking to better ensure that resources are used 
effectively.
    In 1983, GAO concluded that there was a need to coordinate 
the Nation's drug control efforts, and recommended that the 
President delegate the responsibility to one individual to 
strengthen oversight of Federal drug enforcement programs. 
Since then GAO has periodically concluded that there is a 
continuing need for a central planning agency. Congress 
addressed this issue through the Anti-Drug Abuse Act of 1988, 
which created the ONDCP to better plan a Nation-wide drug 
control effort and assist Congress in overseeing that effort.
    ONDCP was initially authorized through November 1993 and 
later reauthorized through September 30 of this year. Since the 
last reauthorization of ONDCP, GAO has issued many reports on 
various aspects of the drug control effort. Most recently we 
summarized our work on international supply reduction efforts, 
most of which has been done for this subcommittee. We concluded 
that these efforts have not reduced the availability of drugs 
for several reasons, including sophisticated drug trafficking 
organizations, competing U.S. foreign policy objectives and 
inadequate assistance from governments of drug producing and 
transit countries.
    We also summarized some promising initial research results 
in the area of demand reduction. For example, recent research 
points to two types of promising drug prevention approaches for 
school age youth and three approaches for treating cocaine use. 
However, we also found that sufficient valuative research had 
not been done to test their effectiveness and applicability 
among different populations in different settings.
    Our work also shows that the Nation still lacks meaningful 
performance measures to help guide decisionmaking for the drug 
control effort. We have acknowledged that performance 
measurement in the area of drug control is particularly 
difficult for a variety of reasons. Notwithstanding, we have 
concluded over the years that better performance measures than 
the ones in place were needed. In 1993, we recommended that 
Congress, as part of its reauthorization of ONDCP, direct the 
agency to develop additional performance measures.
    In reauthorizing ONDCP in 1994, Congress specified that 
ONDCP's performance measurement system should assess changes in 
drug use, drug availability, the consequences of drug use, drug 
treatment capacity, and the adequacy of drug treatment systems. 
ONDCP's initial effort began around January 1994 with a private 
contractor, but did not prove fruitful. In the summer of 1996, 
it began a new effort involving working groups composed of 
representatives from Federal drug control agencies and State, 
local and private organizations. The working groups have been 
tasked with establishing performance measures for the goals set 
forth in the 1997 National Drug Control Strategy articulated by 
ONDCP.
    As yet, however, no new measures have been approved by the 
ONDCP director. Given the complexity of the issues and the 
fragmentation of the approach to the National Drug Control 
Strategy among more than 50 Federal agencies, we continue to 
believe that there is a need for a central planning agency such 
as ONDCP to coordinate the Nation's efforts.
    We note that while it is difficult to gauge ONDCP' 
effectiveness in the absence of good performance measures, we 
have found no compelling evidence that would lead us to advise 
against ONDCP's reauthorization for a finite period of time. 
Mr. Chairman, this completes my statement. And my colleagues 
and I would be pleased to answer your questions at this time.
    [The prepared statement of Mr. Rabkin follows:]
    [GRAPHIC] [TIFF OMITTED] T4274.041
    
    [GRAPHIC] [TIFF OMITTED] T4274.042
    
    [GRAPHIC] [TIFF OMITTED] T4274.043
    
    [GRAPHIC] [TIFF OMITTED] T4274.044
    
    [GRAPHIC] [TIFF OMITTED] T4274.045
    
    [GRAPHIC] [TIFF OMITTED] T4274.046
    
    [GRAPHIC] [TIFF OMITTED] T4274.047
    
    [GRAPHIC] [TIFF OMITTED] T4274.048
    
    [GRAPHIC] [TIFF OMITTED] T4274.049
    
    [GRAPHIC] [TIFF OMITTED] T4274.050
    
    [GRAPHIC] [TIFF OMITTED] T4274.051
    
    [GRAPHIC] [TIFF OMITTED] T4274.052
    
    [GRAPHIC] [TIFF OMITTED] T4274.053
    
    [GRAPHIC] [TIFF OMITTED] T4274.054
    
    Mr. Souder. Thank you very much for your testimony. There's 
a couple different ways to approach this. First, let me ask you 
some kind of fundamental questions. You raised the performance 
standard question, alluded to the fact that you believe that 
they're working with it. Do you believe they've carried out the 
provisions at ONDCP regarding its performance measurement?
    Mr. Rabkin. Well, they're not there yet. I think they're 
making a very good faith effort. We've been briefed on the 
status, what they're doing, and where they are. And I think 
that they're on the right track by involving the agencies that 
are going to be charged with carrying out the strategy, getting 
them involved at the working level and at a policy. I think 
that they're on the right track.
    Mr. Souder. One of the most difficult things in measurement 
is, in business terms we call them opportunity costs. Here it's 
kind of the reverse. In other words, you said, for example, in 
international narcotics, because of the sophistication of the 
organizations, it's not clear that we've actually reduced. How 
do we know what it would have been?
    Mr. Rabkin. Well, we really don't know what the problem 
would have been without the efforts that were there. And I 
think the concept of a measurement system is to measure the 
results that are achieved with the resources that are invested. 
And as I understand it, it doesn't focus on what you call 
opportunity costs.
    Mr. Souder. Because one of the fundamental questions that 
we get into in this whole area and in other committees that I'm 
in--in education, for example, these things are difficult too--
that if you hold somebody just accountable for--let me relate 
to something I know. I was in furniture retailing. If you set a 
sales goal for somebody and say, ``This is what we expect you 
to reach,'' and don't have an additional measure for saying, 
unless of course there's a recession--in other words, it may be 
a percentage of total--or have some adjustment--part of the 
problem here is, is that by definition if cocaine is seized, 
it's not on the market.
    So it may be relative improvement that we're measuring, for 
one thing. But then if the coca production is higher, then it 
may be that we've made progress--part of what I sense here, and 
in the immigration question, quite frankly, as I was down along 
the California border looking at the drug and immigration 
question--is that since we have no idea exactly how much drugs 
are coming in and no idea how many illegal immigrants are 
coming in, it becomes very difficult to measure the performance 
standards other than the few things that are out there.
    So, another way to ask my question then is, do you believe 
that the performance standards which we're trying to measure by 
are accounting for the different variables? And if not, what 
would you change?
    Mr. Rabkin. In a large sense I think that they may be. In 
fact, I think that they can be. The performance standards will 
be--the program will be measures at different levels. There 
will be an overall, I think--an overall standard. And the ONDCP 
says, the overall mission is to reduce drug use. And I think 
you can look at that measure and see whether all the individual 
components of the strategy are having an effect when looked at 
as a whole. You can also break that down by goal. You can break 
it down by objectives within the goals. And you can find, for 
example, the agencies that are responsible for interdicting 
cocaine: the Customs Service, the Coast Guard, and the other 
agencies that have that mission.
    What are their individual performance goals? What results 
are they expected to achieve to help to contribute to the 
overall goal. And you can measure. The Congress, ONDCP as the 
overseer, the agencies themselves can measure their progress 
against the goals, taking into account the resources they were 
given to meet those goals. And that's where I think the 5 year 
planning, the 5 year budget comes, because the assumption is 
that the agencies will have the resources, will have a given 
level of resources to achieve these results.
    If they get fewer resources, then I think it's appropriate 
to ask the question, well, what results will we get with those 
fewer resources, and then hold them accountable for that. And 
then there are other external factors. You cited a recession in 
the furniture business. There are other external factors, 
changes in economic conditions in source countries, changes in 
culture, that may affect the operations. And those should also 
be taken into account.
    Mr. Souder. One of my frustrations, having first come to 
Washington as a Republican staff director on the Children and 
Family Committee, is that the social issues, we really didn't 
have much accountability standards for what we were spending. 
With law enforcement--there's a little bit more. I am a strong 
advocate of performance standards, because I believe at least 
it starts the bait and shows you what the exceptions are. But I 
also think it's important to keep in mind that those constantly 
need to be revised and worked on--and we need your help in 
advising on those.
    Let me give you one other personal illustration. I used to 
jokingly do this in then Congressman Coats' district staff, as 
economic development liaison, my job was to help get industries 
in. And we didn't argue whether or not it was part of the 
Federal Government's role. What we were doing is drowning in 
northeast Indiana, last one out, please turn out the lights 
after a harvester pulled out. When I took the position with 
Coats the unemployment rate--I can't remember what it was--but 
it was near 15 percent. When I left it had dropped to about 5. 
In the 2 years after that it went back up to 7.
    Hey, I did a great job, except GM came and put a plant in, 
really, with--pretty irrelevant to what I was doing. But the 
performance standard for my job, had it been, he lowered the 
unemployment rate, I'd have looked really good. But it really 
had little to do--I won't take no credit--but it had little to 
do with what I was doing. And I think one of things that we 
need to try to do--because all of us, as we're tightening our 
budget, need to know where are we getting the most bang for the 
buck--but we also need to know what those conditions are.
    And, in fact, if we had a process--say, OK, now explain, 
not excuse, not whine, but explain the variations and how do we 
tighten this the next time. That's what the real world out in 
the private sector has to do or you go broke. Do you see that 
in this area, being able to evolve some--like you said, the 
sophistication of the trafficking, the unlimited borders along 
Mexico, both in water and land? How are we going to do the 
international trafficking? Also, I'm on the oversight 
subcommittee on treatment and education programs, the only 
things out there are like D.A.R.E., where we have studies.
    And it seems like often in prevention programs, they are 
very effective if you measure short term in third and fourth 
and fifth grade when the kids aren't very tempted. The question 
is, what happens when it hits junior high. Any additional 
insights on the performance standards related to any of these 
categories given how nebulous, how many influences are on the 
process?
    Mr. Rabkin. Well, I'd like to make an overall comment and 
then perhaps some of my colleagues can answer some of the 
specific issues that you raised. I don't want to leave you with 
the impression that this is an easy process. Developing the 
performance measures themselves is difficult and yet it may be 
the easiest part of the process. A lot of the evaluation that's 
going to take place is going to depend on the quality of the 
data. You suggested that no one knows how much cocaine is 
coming into the country or is being shipped to the United 
States.
    Well, it's important to know that if one of the measures is 
going to be the success of the interdictors in stopping it 
coming in. It's easy to find out what you stop. It's hard to 
know what you missed. And yet many of the measures that are 
being developed relate to the percentage of the goods that are 
coming in that are actually interdicted. So you need to know 
that denominator. So that's very difficult.
    And if you do get good data, the analysis of the data and 
the assignment of these outcomes of the specific inputs is 
going to be extremely difficult. You know, is it really the 
efforts of the Customs Service at the border or is it really 
the efforts of DEA in some foreign countries, or is it really 
the efforts of the local law enforcement or is it really the 
efforts of the parents and the teachers that has caused it. 
That's going to be a very difficult evaluation to make. So I 
think that we're really just at the start of this whole 
process. And if you'd have comments on international or the 
treatment side?
    Mr. Souder. Have Mr. Ford or Ms. Lillie-Blanton?
    Mr. Ford. Yes. Let me comment on the international side, 
which is the area that I deal with. And I want to concur with 
Mr. Rabkin's comments. I don't think there's an easy answer 
coming up with measurable indicators that everyone is going to 
commonly agree to. But I think if you look at our efforts over 
the last 10 years, say, in the international side, all too 
often we've found cases where we have planned efforts either in 
a country or in a region or by agency and they don't seem to be 
well integrated. And what you cite as success of reduction in 
cultivation in one country there's an increase in another, so 
the net effect is that there's a net increase.
    I think it's important--and this is why we support what 
ONDCP is trying to do--that we develop measures that generally 
we all agree to, but we have to have some flexibility. From 
your perspective you want to know where to make the right 
investment in terms of where to put the resources. And I think 
you have to have good data and some analysis of what the 
results are in order to make the best judgment instead of 
looking at it in a piecemeal fashion. I think that's why we 
support what ONDCP is trying to do, particularly on the 
international side. Because it leads to a more coherent 
approach to what we're trying to achieve there.
    Ms. Lillie-Blanton. I just want to respond briefly to your 
concerns about prevention. Because I fully agree that the 
problem of looking at all the intervening variables is very, 
very difficult. But on the treatment side, we made an 
investment on research and evaluation. I mean, we have several 
longitudinal studies over a 10-year period of time. We have 
several multi-site evaluations that looked at 5 to 10,000 drug 
users in treatment. And we now have in place another 7-year 
study that's looking over time at defined performance measures 
that have been set up in treatment. In the prevention arena we 
are nowhere close to where we have come in treatment.
    And so I would say that setting those performance targets 
and developing the measures is the first that we need to do to 
get us to the point where we're not just looking at D.A.R.E. or 
just looking at the Midwestern Prevention Project. We have a 
few models. But we need to test out and evaluate those models 
in a larger context and, certainly, as you have said, over a 
longer time period. Because the intervening variables over the 
course of time is really what can effect the outcomes that we 
evaluate in a short time period.
    Mr. Souder. One of the things in prevention--some things 
are more easily measurable directly than other things. For 
example, I know in Fort Wayne where they put the drug dogs in, 
the first year they found some, the second and third year they 
found none. That doesn't mean all of a sudden marijuana 
disappeared. But it wasn't at the school. Also we know that 
schools that put drug testing programs in for certain targeting 
things like athletes, which started probably 9 years ago in a 
case with McCutcheon High School in Indiana, all of sudden it 
disappeared during the period of time at least they were in 
athletics.
    So there are some measurement things that are easier to 
measure, some that are harder. And even that only gives us 
short-term. I want to move to some other types of categories. 
But Mr. Barr said he had to leave. He said he appreciated your 
work, wants to stay posted on this type of thing as we look at 
performance standards and how we're doing the budget, and 
apologize that he didn't get his questioning in.
    You mentioned, Mr. Rabkin, about the 5 year plan. The 
administration is--and you're supportive of long-term. The 
administration has been looking at a strategy for 10 years. Do 
you think that's the most effective way given the fact that 
we're struggling even to get the five?
    Mr. Rabkin. I think there's value in a long-term strategy. 
I think it's good for an issue like drug control for the 
Government, for a coordinated effort with 50 different 
departments at the Federal level, not even to mention what's 
going on at the State and local and in the private sector, to 
have these targets set out there so you know where you are 
today--hopefully you have a baseline--and you know where you 
want to go. And I think it's important that you measure all 
along the way to see if you're still on the same path, the 
right path. And I think ONDCP's plan calls for that. I mean, 
obviously there will be annual plans that will be up before the 
Congress every year in sessions like this.
    The 50 agencies that are involved in the plan will be up 
before their authorizing and appropriations committees 
justifying their requests for that money and explaining what 
they are doing and what they have achieved and how their 
results fit in to this overall plan. I think there's plenty of 
opportunity for oversight. But it to me is a good move to have 
the target out there. It seems to me the strategy that has 
developed has evolved over time. You know, they were authorized 
in 1988-1989, and the first strategy came out shortly 
thereafter.
    It sort of wavered. It seems to have settled in now. There 
seems to be some consistency over the last couple of years in 
the overall strategy. Now it's time to move on to the issue of 
measurement and evaluation. So, I think the 10-year strategy is 
a good idea.
    Mr. Souder. You're raising some very difficult questions. 
Because if, indeed, we lack data on what's effective in so many 
different categories, it becomes a little presumptuous to plan 
too far given the fact that we're trying to up that research. 
And let me ask you a question, in working with Government 
agencies, if there's a plan out there, do you think the 
research and the monitoring tends to try to justify the 
behavior or do you think it's open minded research?
    And isn't one of the natures of bureaucracy to try to 
justify its behavior? That's one of the dangers of having a 
plan where you start to try to justify what you're doing. In 
other words, stability is important for performance. On the 
other hand, when you get stability, it means you have 
entrenched bureaucracies trying to explain their behavior as 
opposed to trying to figure out how best to tackle the problem.
    Mr. Rabkin. I think the theory here is not to focus on the 
behavior but rather to focus on the outcomes. And as long as 
the oversight focus is on outcomes and the agencies are held 
accountable, whatever behavior they exhibit to get to those 
outcomes--I mean, they would have planned it along the way and 
laid it out--but the focus should be on the outcomes. Are we 
reducing drug use and the illegal use of drugs and the 
consequences of that drug use? I mean, that's the overall 
mission of ONDCP. It's the overall mission of the drug control 
effort in the Federal Government. So I think as long as the 
focus is on outcomes. I think that's the theory behind the 
Government Performance and Results Act: hold the agencies 
accountable for outcomes rather than activities.
    Mr. Souder. Right. Which is definitely what it should be. 
The figures lie and liars figure, however, still is there. We 
all know how statistics can be used. The Office of Management 
and Budget only accepted one third of the critical anti-drug 
interdiction effort proposed by the Coast Guard. Why would you 
or the President keep interdiction funding so low? In other 
words, do you feel there's any--what's your reaction to the 
funding level on interdiction? Should we up that?
    Mr. Rabkin. I'm not in a position to--the General 
Accounting Office is not in a position to suggest what the 
funding level should be for interdiction. ONDCP's role is to 
consider the missions of all the agencies that are involved in 
the interdiction function and to make that recommendation from 
a broader perspective. And I think there are results that can 
be gained through the investment of additional resources. The 
Coast Guard ran an operation called Frontier Shield last year 
or earlier this year, where they put additional resources in 
the Caribbean.
    It produced activities. There were more seizures. You know, 
there were more cutters out for more hours looking at more--
interdicting more ships, making more boardings, more seizures. 
And that resulted in less drugs getting into the country. But 
one of the things from a broader perspective, we've found, that 
when there are successes in one area of the country, that the 
sophisticated drug trafficking organizations move to where the 
resistance is less. And so it's important to look at this issue 
from a broader perspective. So increased funding for the Coast 
Guard may achieve certain results in certain areas, but you 
want to make sure--and that's where ONDCP plays a pivotal role, 
is looking at this in a much broader context, that the overall 
goals of interdiction and the overall goals of the drug 
strategy are being met.
    Mr. Souder. Have you seen in performance review--one thing 
we heard at least informally when we were in Bolivia and Peru 
was that because of price pressures, partly because we were in 
fact forcing--in other words, that coming through Florida 
initially was the cheapest or they wouldn't have been coming in 
through Florida. As we move them to more complicated 
procedures, or as Peru moves them--instead of flying an 
airplane they have to go around the water route--as we tighten 
that, that affects their costs. So that either drives the price 
up in the United States or what they pay at the wholesale 
level.
    And one of things that we were hearing was, for example--
AID was saying--for the first time people were saying, well, 
what about planting bananas? Because have you looked at that in 
part of the performance monitoring in the international either 
Mr. Rabkin--in the source countries--or Mr. Ford?
    Mr. Ford. First of all, we haven't done any recent work in 
Peru. What you're referring to is that outcome of an air 
operation that we've had there since 1995--it's an ongoing 
effort--that did have apparently some impact on the prices at 
the local level there which caused a number of the local 
farmers to say, hey, I'm not making enough money, I want to do 
something else. I think the issue here is we want to talk about 
sustainment of effort. And the fact that there appears to be 
some evidence that the traffickers are now, in fact, going 
around.
    Now, how much that costs them in addition and how that 
impacts on street prices, at this point I can't comment on 
that. I haven't looked at the most recent data. But I think the 
most important point here is that while that effort appears to 
have been successful, you need to talk in terms of sustainment 
and you need to talk about how you're going to react to it. 
Because they always react to our operations. We tend to have 
success over some period of time and then the traffickers find 
ways around it.
    And I think that there's some--I just recently came back 
from Panama and talked to SouthCOM, and they're talking a more 
regional perspective at looking at that issue and trying to 
come up with a more sustained approach. I think that from 
ONDCP's point of view, they need to make sure that their 
interdiction strategy takes into consideration the entire 
region, not just what's going on in one country or country by 
country piecemeal. It needs to be all integrated together.
    Because otherwise you're not going to be able to really get 
to the bottom line of what the impact is. It's all going to be 
short-term.
    Mr. Souder. Well, the change in the flow into Florida has 
substantially--in other words, I agree that it moves.
    Mr. Ford. Mm-hmm.
    Mr. Souder. And it would be very difficult without having a 
lot of information we don't have to know what their cost 
changes are internally. But presumably even if you don't stop 
it, as you make it more complicated--some of these patterns 
have changed long-term. Now if we back down we start to see it 
go back to the previous area. But there's some--as I understand 
what you're saying--is that there's not really that type of 
performance review, partly because it would be very difficult 
to get the data. But the fact that they've had an 18 percent 
decrease in the amount being produced in the countries where it 
comes from, or that they have to clearly expend more, we know 
intuitively that that's made a change. We just don't know how 
much. Is that not correct?
    Mr. Ford. Yes. I think that is correct. And I think that's 
important, though, because if you're going to advocate spending 
more resources on a particular operation, you want to--I would 
want to have a little more data on what the likely outcome of 
that is going to be, particularly if things seemed to have 
changed. And they're now analyzing that as we speak. They're 
now trying to figure out where the bad guys are now going and 
where do we need to put the effort.
    Mr. Souder. Now, one of the problems that we have is that--
we started in this discussion saying we have very little hard 
core evidence to grab onto, in particular, and what we have 
here is that we know that the Coast Guard accomplished its 
particular thing. We know that certain eradication programs are 
accomplishing certain things. We know that the shoot down 
policy in Peru accomplished certain things.
    We know that the drug dogs accomplished certain things. We 
know that drug testing accomplished certain things. Many things 
where the funding proposals are actually going have less 
evidence then even that. It isn't that any of them seem to be. 
It's not that we shouldn't be looking at comprehensive--any 
evidence we get from anywhere given the totality of the problem 
and the inter-related variables, it's always going to be 
inconclusive, because it's a problem that will never really go 
away.
    It's a matter of reducing the supply, upping the costs, 
trying to do some prevention treatment. It's not likely that 
we're ever going to totally get rid of the problem. So it 
becomes a little different performance standard than a zero 
tolerance.
    Mr. Rabkin. Yes. I agree, Mr. Chairman. I think that that's 
behind the strategy and the measurement system. The goal that 
they set--and I expect that they will be presenting that 
information to the Congress some time late summer or early 
fall, that the goal will not be a zero goal, but it will be a 
certain reduction over a given period of time, and will 
probably have some incremental targets along the way. But I 
think there will be these interim measures and it will be 
something--that each of these different factions will have 
measures and targets and can be held accountable to those.
    Mr. Souder. Have you been involved at all in the 
comprehensive overview and review by ONDCP of their counter-
intelligence efforts? Because we've heard a lot--we're very 
concerned about what happened in Mexico. It took us ablind. 
Have you looked at any of that?
    Mr. Rabkin. No. We have not looked recently at that. In the 
past we have looked at the drug intelligence structure in the 
Federal Government. This was 4 or 5 years ago. And we are 
working with committee staff on doing more work for the 
committee this year.
    Mr. Souder. ONDCP hasn't contacted you or you haven't done 
or had any direct relationship with them on the counter-drug 
intelligence?
    Mr. Rabkin. No, we have not. But we will--on this work for 
the committee, we will be working with ONDCP.
    Mr. Souder. What about--apparently ONDCP has indicated that 
it is still studying the feasibility of implementing a lessons 
learned data base. What's your reaction to that?
    Mr. Rabkin. I'll let Mr. Ford answer that.
    Mr. Ford. Yes. Again, that was a recommendation in the 
report we did for the committee in February. And I want to 
preface my remarks. This dealt primarily with the international 
side of the drug war, not the entire operation. But basically 
our recommendation is geared toward a problem that we found 
over the years and the work we've done. And that has to do with 
the continuity of effort. What happens is that we run 
operations. We run people in and out. They're rotated out of 
their assignment. They move on to other assignments.
    And a lot of the good information that we've learned from 
previous efforts sometimes gets lost or we actually have the 
data but it's not put in a place where people can touch on it 
so when they plan their reference in the future they have a 
good idea of what's happened. Our recommendation that we put in 
our report was geared toward having ONDCP develop a way of 
capturing that centralized information so that the continuity 
problem wouldn't resurface on various operations. We did not 
intend, necessarily, to develop an expensive data information 
system.
    We basically wanted them to be a repository, central local 
point, for planners to go to get information on how to plan 
operations using some historical experience that we've had. And 
that's what the intent of the recommendation was when we put it 
into the report.
    Mr. Souder. One gentleman I worked with years ago from the 
city of Miami School System, Dade County, as they were putting 
in the pioneer areas in school-based management, said that 
often nobody wants to do analysis because they're afraid that 
somehow somebody will get retribution, and lessons learned is a 
kind of a scary--it's like, what works, what doesn't and why. 
People are willing to say what works because then they might 
get more money. They aren't necessarily willing to share what 
didn't work.
    And often you can learn more as a baseball player as why 
you struck out than how you got the hit. You need to study both 
parts of that. And I think a lessons learned repository would 
be helpful, not only for national, but, like you say, for 
around the country. You said--there was a quote, if I 
understand this, you have found no compelling evidence to lead 
us to advise against ONDCP's reauthorization. It doesn't sound, 
on the other hand, like you thought that it's been the central 
planning agency that you envisioned in your original.
    In other words, I think Gen. McCaffrey has brought a 
strength to it in the sense of a public forum much like Bill 
Bennett did. But it really hasn't accomplished the type of 
integration that was the goal of that office. Do you feel 
there's a better structure that could be developed? How would 
you do that?
    Mr. Rabkin. Mr. Chairman, I think the hesitancy in our 
language is simply because we didn't conduct an evaluation of 
ONDCP specifically to determine if it had effectively carried 
out its mission. We've been looking at some programs around 
from the different agencies that have peripherally been 
involved with ONDCP in their role as a coordinator. And it's 
only been--we spent a couple weeks getting ready for this 
hearing, focusing on the performance measurement system.
    But basically what we're saying is there's certainly a need 
to coordinate, there's a need for that agency. ONDCP seems to 
have done the things that the Congress asked it to do when it 
reauthorized ONDCP in 1993. It seems to me that ONDCP is a good 
value for the investment in terms of the investment that the 
Congress is making in it as a coordinator. And there's a need 
for it. The only reason that we phrased it that way was because 
we hadn't done any specific work to answer the broader 
question.
    Mr. Souder. In closing--and I appreciate the patience 
you've had, because this has been a strung-out hearing. That's 
a poor choice of words. But a hearing because of the voting and 
changing over here, it took a while. But let me--is it true, 
even given what you've just said, that--and I agree that we've 
made progress--that it could be doing better in these areas. If 
you could comment on this if you disagree or if you agree. At 
least in these areas including intelligence coordination--
because clearly we've had problems--when the drug czar 
announces his satisfaction with a man who you find out not only 
was on the payroll of a cartel but was living in the apartment 
and living in the apartment with the person from the cartel and 
had hired a staff person that had been busted before for having 
been a narcotics trafficker, it is pretty self evident that we 
have an intelligence question, problem--that also, in budget 
oversight and certification, in internal hiring and 
coordination, in anti-legalization coordination and in 
coordination of interdiction and support, to just name a few. 
Would you not agree that they at least need to improve even if 
you're saying that they deserve to be reauthorized and that 
they're doing a reasonable job?
    Mr. Rabkin. Well, from the evidence that I've heard 
presented today, I would think that, yes, there is an 
opportunity for ONDCP to do a better job. But, again, we 
haven't done any work specifically looking at these issues. For 
example, in the intelligence coordination, there's issues of 
coordination among the intelligence gathering agencies and 
issues of coordination between the gathering agencies and the 
law enforcement agencies that can make use of that 
intelligence.
    And then there's coordination among the law enforcement 
agencies to make sure that the best use of the intelligence is 
made. Those are some issues that we plan to get involved with 
in dealing with the question that the subcommittee is putting 
forth on drug intelligence. And so it's a very complicated 
area. And we'd rather do the analysis first and then reach the 
conclusions.
    Mr. Souder. OK. Well, thank you very much for your time. 
And we look forward to continuing to work with you. Because 
it's an important part. Because as much as we are appalled by 
the continuing deaths in our own districts and the threats to 
our own families in addition to the Nation as a whole and the 
international community by narcotrafficking, it is wise to look 
at how we're spending the money and where, and getting the most 
value for each dollar, particularly as we're under the budget 
constraints. So we look forward to working with you with that. 
And with that, this hearing is adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
